<html>
<title> - [H.A.S.C. No. 114-110] HEARING ON NATIONAL DEFENSE AUTHORIZATION ACT FOR FISCAL YEAR 2017 AND OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS BEFORE THE COMMITTEE ON ARMED SERVICES HOUSE OF REPRESENTATIVES ONE HUNDRED FOURTEENTH CONGRESS SECOND SESSION</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]






 
                         [H.A.S.C. No. 114-110]

                                HEARING

                                   ON

                   NATIONAL DEFENSE AUTHORIZATION ACT

                          FOR FISCAL YEAR 2017

                                  AND

              OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS

                               BEFORE THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                SUBCOMMITTEE ON STRATEGIC FORCES HEARING

                                   ON

      FISCAL YEAR 2017 BUDGET REQUEST FOR NATIONAL SECURITY SPACE

                               __________

                              HEARING HELD
                             MARCH 15, 2016

 
 
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

 
 
 
 
 
 
                                  ______
 
                          U.S. GOVERNMENT PUBLISHING OFFICE 
 
 20-062                         WASHINGTON : 2017 
 -----------------------------------------------------------------------
   For sale by the Superintendent of Documents, U.S. Government Publishing 
   Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
          DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                           Washington, DC 20402-0001
                          
 
 
 
                                     
  


                    SUBCOMMITTEE ON STRATEGIC FORCES

                     MIKE ROGERS, Alabama, Chairman

TRENT FRANKS, Arizona                JIM COOPER, Tennessee
DOUG LAMBORN, Colorado, Vice Chair   LORETTA SANCHEZ, California
MIKE COFFMAN, Colorado               RICK LARSEN, Washington
MO BROOKS, Alabama                   JOHN GARAMENDI, California
JIM BRIDENSTINE, Oklahoma            MARK TAKAI, Hawaii
J. RANDY FORBES, Virginia            BRAD ASHFORD, Nebraska
ROB BISHOP, Utah                     PETE AGUILAR, California
MICHAEL R. TURNER, Ohio
JOHN FLEMING, Louisiana
                 Steve Kitay, Professional Staff Member
                         Leonor Tomero, Counsel
                           Mike Gancio, Clerk
                           
                           
                           
                           
                           
                           
                           
                           
                           
                           
                           
                           
                           
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Buck, Lt Gen David J., USAF, Commander, Joint Functional 
  Component Command for Space
Calvelli, Frank, Principal Deputy Director, National 
  Reconnaissance Office
Cardillo, Robert, Director, National Geospatial-Intelligence 
  Agency
Hyten, Gen John E., USAF, Commander, Air Force Space Command
Loverro, Douglas, Deputy Assistant Secretary of Defense for Space 
  Policy, U.S. Department of Defense
Weatherington, Dyke, Acting Deputy Assistant Secretary of Defense 
  for Space, Strategic, and Intelligence Systems, U.S. Department 
  of Defense

                                APPENDIX

Prepared Statements:

    Buck, Lt Gen David J.........................................    71
    Calvelli, Frank..............................................    93
    Cardillo, Robert.............................................    85
    Hyten, Gen John E............................................    29
    Loverro, Douglas.............................................    48
    Rogers, Hon. Mike, a Representative from Alabama, Chairman, 
      Subcommittee on Strategic Forces...........................    27
    Weatherington, Dyke..........................................    61

Documents Submitted for the Record:

    Slide: Commercial Launch Environment.........................   107

Witness Responses to Questions Asked During the Hearing:

    Mr. Bridenstine..............................................   111

Questions Submitted by Members Post Hearing:

    Mr. Coffman..................................................   135
    Mr. Cooper...................................................   125
    Mr. Lamborn..................................................   129
    Mr. Peters...................................................   136
    Mr. Rogers...................................................   115
    Mr. Turner...................................................   136
    
    
    
    
    
    
    
    
    
    
    
    
    
      FISCAL YEAR 2017 BUDGET REQUEST FOR NATIONAL SECURITY SPACE

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
                          Subcommittee on Strategic Forces,
                           Washington, DC, Tuesday, March 15, 2016.
    The subcommittee met, pursuant to call, at 3:05 p.m., in 
room 2118, Rayburn House Office Building, Hon. Mike Rogers 
(chairman of the subcommittee) presiding.
    Mr. Rogers. All right. This hearing of the House Armed 
Services Subcommittee on Strategic Forces will come to order.
    I want to thank all of our witnesses for being here and 
taking the time to prepare for this hearing.
    We are going to have a problem with votes in a little 
while, crunching our time. We have a big panel, so the ranking 
member and I have agreed that we are going to dispense with 
opening statements, both on our side and on your side, so we 
can go straight to questions and answers and try to get both 
the open side of this hearing as well as the classified part of 
this hearing done before they call us for votes, which we think 
will be around, what, 4:00? 3:30 or 4:00. I have no control 
over that.
    So anyway, we will accept the opening statements for the 
record and go straight to questions, and I will recognize 
myself for the first set of questions. That is without 
objection. All right.
    [The prepared statements can be found in the Appendix 
beginning on page 27.]
    Mr. Rogers. General Hyten, some have suggested that we 
should--well, first let me for the record acknowledge who all 
we have for witnesses here today.
    We have General John Hyten, Commander, Air Force Space 
Command; Mr. Doug Loverro, Deputy Assistant Secretary of 
Defense for Space Policy; Dyke Weatherington, Acting Deputy 
Assistant Secretary of Defense for Space, Strategic and 
Intelligence Systems. I would like to see your business card. 
That is a lot to put on there.
    Lieutenant General David Buck, Commander Joint Functional 
Component Command for Space; and Mr. Robert Cardillo, Director 
of National Geospatial-Intelligence Agency; as well as Frank 
Calvelli, Director of the National Reconnaissance Office, 
deputy director. It says director here. I was trying to give 
you a promotion.
    Mr. Calvelli. Thank you, sir.
    Mr. Rogers. Betty wouldn't like that, would she?
    Mr. Calvelli. No, she wouldn't.
    Mr. Rogers. Thank you all for being here. All right. We 
will go to questioning.
    General Hyten, some have suggested that we should phase out 
Atlas V and go to Delta IV and Falcon 9 mix prior to a new U.S. 
engine being built. In testimony at the SASC [Senate Armed 
Services Committee] earlier this month, the Secretary of the 
Air Force stated that preliminary analysis showed it was going 
to cost $1.5 to $5 billion in additional costs, depending on 
assumptions of when to transition.
    Can you provide your perspective on going to Delta-Falcon-
only capability before we replace the RD-180? If this cost had 
to be taken out of existing space accounts, what would be the 
impact on the Air Force space mission?
    General Hyten. Thank you, Congressman. The impact on the 
existing Air Force space mission would be significant, because 
if you have to take billions of dollars out and try to do 
something else with it, what are you going to take out? Are we 
going to stop doing GPS [Global Positioning System]? Are we 
going to stop doing missile warning? Are we going to stop doing 
satellite communications? Those are very, very difficult 
questions. So it will actually come back to the Air Force and 
we will have to decide where to do that.
    The number $1.5 to $5 billion is a significant number. What 
it should really tell you is, that in reality, we don't know 
how much that will cost us. The reason we don't know how much 
it will cost us, and the estimates are so huge is because, as 
the Secretary said, we have so many assumptions about what the 
future is going to look like. Are we going to have a Falcon 9 
Heavy in the interim period between 2019 and 2022? What is the 
industry going to look like between 2019 and 2022? All those 
questions we really don't know the answer to.
    We know if we come off of Atlas and go to Delta, there are 
certain things we have to do. SBIRS and AEHF, two of our big 
satellites today, the Space-Based Infrared System, the Advanced 
Extremely High Frequency satellite system, only fly on Atlas 
today, so we would have to figure out on how to move those to 
Delta. We would have to do the engineering analysis and maybe 
reconfigure those satellites and reconfigure the interfaces to 
do that, which means we will have to store AEHF and SBIRS for a 
certain period of time. All that costs us money. That costs us 
money in the near years.
    Then Delta will be more expensive. There is no doubt Delta 
will be more expensive. The number is going to be in the 
billions, there is no doubt about that, but exactly where it 
comes out, I don't know. So planning for uncertainty is not a 
good place to be. So we would like to plan for certainty in the 
transition, which is why we are asking for additional RD-180s 
to allow us to compete.
    Goodness knows we want off the Russian engine as fast as 
any human being on the planet. We want off the Russian engine 
as fast as possible. But, asking the American taxpayers to 
write a check for multiple billions of dollars in the future 
for an unknown is a very difficult thing to do, and for the Air 
Force, that will be a very difficult budget issue to work.
    Mr. Rogers. And I would like for the record to ask you this 
question. We have had testimony on panels that you have sat on, 
as well as a host of other people at this table, as well as 
others, who have said that they believe with some degree of 
confidence that we can have a replacement engine and have it 
certified in the 2020 to 2022, 2023 timeframe. Is that 
something you still believe is accurate?
    General Hyten. So the two contracts we have just signed, 
for the first stage engine, both require delivery of that 
engine by December of 2019. It will then take 2 to 3 years to 
certify that into a rocket system to allow us to launch. So 
that means by 2022 to 2023, we should be ready to launch.
    Mr. Rogers. And you have confidence in that timeframe?
    General Hyten. I have more confidence today than I did last 
year. There is always risk in any development program that is 
looking at new technology. So there is risk in that, but I am 
more confident this year with both the Aerojet Rocketdyne 
solution, as well as the Blue Origin solution than I was last 
year, because the progress that we have made working with 
industry and the progress that I have seen from those two 
companies.
    Mr. Rogers. And my point in raising that is that this is 
not an infinite amount of time that we are talking about, that 
we have got to wrestle with this RD-180 issue, that we can see 
the light at the end of the tunnel if we just remain steadfast 
and find a way to make this--navigate these waters, and then 
get off of it permanently.
    Mr. Calvelli, you heard General Hyten's observations about 
the Delta-Falcon mix. Do you agree with those, and can you tell 
us what impact that would have on NRO [National Reconnaissance 
Office] operations?
    Mr. Calvelli. Yes. I agree with what General Hyten 
answered, and as well as, you know, the implications to us are 
the same that the Air Force has, and I think one of the big 
things here would be the timing. So, for example, I have got 
unique vehicles that were designed around flying on an Atlas. 
If I was told, like, tomorrow they could not go on an Atlas, I 
mean, the cost would be higher. If it is a gradual transition 
over a period of years, the cost would be lower. And so it all 
depends on the timeframe of the decision is made.
    Mr. Rogers. But you would agree--I am asking. I don't want 
to ask leading questions----
    Mr. Calvelli. Okay.
    Mr. Rogers [continuing]. We are not in the courtroom, but 
would you agree that the timeframe after you get past 3 to 5 
years is just hard to predict. I mean, there is no way to know 
that you are going to have, what kind of launch opportunities 
are going to be out there or demands.
    Mr. Calvelli. Sure. That is correct, sir.
    Mr. Rogers. All right. The underpinning of the Air Force 
RD-180 replacement plan is based on creating two commercially 
viable launch systems which all meet the EELV [Evolved 
Expendable Launch Vehicle] requirements. Let me give you two 
examples of what I have heard about the commercial market from 
experts on this point that we were just talking about. General 
Mitchell's study on the RD-180 reliance mitigation stated, 
quote, ``Launch capability exceeds demand three to one to 
service this fixed market,'' closed quote. And you can see the 
monitors for a slide on this commercial launch environment 
according to General Mitchell's report.
    [The slide referred to can be found in the Appendix on page 
107.]
    Mr. Rogers. Separately, Ms. Katrina McFarland, who leads 
acquisition in OSD-AT&L [Office of the Secretary of Defense for 
Acquisition, Technology, and Logistics], stated in one of our 
launch hearings last year that, quote, ``The 2014 commercial 
space transportation forecast that came out has a flat line on 
what we can anticipate in the future that would bring in, in 
terms of commercial NGO [non-governmental organization] to the 
government. They are all competing for the same size pie,'' 
close quote.
    General Hyten and Mr. Weatherington, do you disagree with 
General Mitchell and Ms. McFarland's assessment of the 
commercial launch market? General Hyten first.
    General Hyten. So if you look at that chart, the one thing 
that should be clear to everybody is that we have never 
predicted the commercial launch market correctly. I don't think 
we fully understand what the commercial launch market is going 
to be, and I wouldn't bet exactly where the commercial launch 
market is going to end up in 3 to 5 years again.
    What I would say is the commercial launch market is more 
mature. And the one thing, if you look at those numbers on 
there, there are still significant numbers available for the 
commercial launch industry. Our launch industry, unfortunately, 
has not been able to ever compete for those, because we have 
been way too high priced. If you look at how many EELVs, how 
many of the rockets, Atlas and Delta, that we have launched 
since the beginning, 92. Of those 92, 62 were for the 
Department of Defense [DOD] and the national security missions. 
Sixteen were for NASA, and 14 were for the commercial sector, 
only 14.
    Mr. Rogers. That is amazing.
    General Hyten. Fourteen in the entire history of the 
program. So whatever we do, we need to be more competitive and 
more commercially viable as we get to the out years. But that 
is why it is a public/private partnership, because the 
commercial sector is not there right now. We believe that, 
eventually, there will be a commercial industry in space, but 
even with the commercial industry we have right now, we need to 
be more competitive in----
    Mr. Rogers. What do you base that on when you say you 
believe there will be more of a commercial demand?
    General Hyten. Because I watch the maturation, especially 
in the satellite communication business, of how the satellite 
communication business has flourished in recent years. When we 
started these programs back in the mid-1990s, there was really 
no commercial business. There is a commercial business now. A 
lot of that commercial business goes overseas to launch. There 
is also a new business taking place, mostly out of Silicon 
Valley, that many people call ``new space'' that is looking at 
distributed constellations of numbers of small satellites. One 
of those companies is going to figure that out, because there 
is a huge business case for them to figure it out. When that 
happens, I can't tell you, I am not a business person. But I 
can tell you that that is much different than it was in the 
1990s when we started down this path.
    Mr. Rogers. All right. Mr. Weatherington, you heard me try 
to recite Ms. McFarland and General Mitchell's observations. 
What are your thoughts?
    Mr. Weatherington. Thank you, Mr. Chairman. So to leverage 
on what General Hyten said, from AT&L's perspective, the launch 
market really has three components. It has got the NSS 
[national security space] component; it has got the other U.S. 
Government component, largely NASA [National Aeronautics and 
Space Administration]; and it has got the commercial 
components. And as General Hyten indicated, all three of these 
components are difficult to predict in the future. Let me just 
give you one example. So for national security space, our 
manifest is flat to trending slightly downward through the FYDP 
[Future Years Defense Plan]. Later on, you will probably ask us 
some questions on resiliency, and General Hyten and his staff 
are working hard to develop strategies that address our lack of 
resiliency today.
    One of those potential solutions is to disaggregate some 
constellations that likely would result in an increase in NSS 
launch capacity, but we aren't there yet. So it is difficult to 
predict what the NSS launch manifest will be in the future.
    Other government contractors, NASA, we have got the 
question of where the International Space Station is going to 
go in the future, so that is an unknown. And, again, as General 
Hyten said, there is really two components for commercial: 
there is the base of commercial, commercial SATCOM [satellite 
communications], supporting a variety of users; and then this 
new space market that may be emerging.
    Now, you know, we bought this before about 10 years ago 
where we anticipated the significant increase in commercial 
space, and that did not materialize. So I think the point here 
is we have to plan for various contingencies. From AT&L's 
perspective, we think the best solution moving forward is a 
plan that gives us two certified launch providers that support 
the entire NSS manifest, and some fraction of their capability 
could be used for the commercial or other government market. If 
that does not transpire, we still need two certified launch 
providers to provide the U.S. Government assured access to 
space.
    Mr. Rogers. Thank you. The Chair now yields to the ranking 
member from Tennessee, Mr. Cooper.
    Mr. Cooper. I thank the chairman. I would also like to 
welcome the witnesses. It is a very distinguished panel. I will 
be saving most of my questions for the classified session 
later, but I would first like to associate myself with General 
Hyten's answer to the chairman regarding the RD-180. I thought 
that was very well expressed.
    It worries me greatly the GPS OCX [Next Generation 
Operational Control System] ground system delays and cost 
overruns. And I noted that Lieutenant General Sam Greaves said 
that, quote, ``It is the number one troubled program within the 
Department of Defense,'' end of quote.
    Sadly there is a lot of competition for that title, but to 
be the winner is not something to be proud of. So if any of you 
would like to comment on that situation, I would love to hear 
your answer.
    General Hyten. Thank you, sir. I will start. I have been on 
the record expressing my displeasure of the OCX program. I 
called it a disaster in the press. And I think any program that 
is a billion dollars over budget and 5 years late meets the 
definition of a disaster. But the question we have to ask 
ourselves is what is the best way forward, what is the best way 
out of this.
    And Mr. Kendall and AT&L, and I will let Mr. Weatherington 
talk about the details, had a session in December, and a 
session just last week with the contractor, going through the 
details looking at the various options. And as we sit here 
today, the best answer is for Raytheon, the contractor 
involved, to deliver that capability in a time certain manner 
and give us the capability that we need to make sure that GPS 
is available for future years in a cyber secure environment.
    And I will let Mr. Weatherington answer the acquisition 
details.
    Mr. Weatherington. Sir, again, to leverage on General 
Hyten's comments, Secretary Kendall signed out an ADM 
[Acquisition Decision Memorandum] on 22 December that provided 
an additional 24 months of schedule for the program. It also 
set a requirement for quarterly deep dives. As General Hyten 
indicated, that first deep dive took place last week out at 
Aurora, Colorado. That was attended by Mr. Kendall and the 
Secretary of the Air Force, so I think that indicates this 
problem has significant senior leadership attention in the 
Department.
    Currently, we believe there is reasonable expectation that 
Raytheon can deliver the capability that we need, but Mr. 
Kendall also directed the Air Force to develop off-ramps for 
the program in the situation that we can't close on this 
program.
    I think it is also important to point out that while the 
program is troubled, the capability that OCX delivers is 
absolutely critical to the warfighter. We have got to improve 
our resiliency both in space and in ground, and that was one of 
the significant goals that OCX had. So whatever we do for the 
program specifically, we have to deliver that capability to the 
warfighter.
    Mr. Cooper. Thank you. I have no more questions, Mr. 
Chairman.
    Mr. Rogers. I thank the ranking member. The Chair now 
recognizes the vice chairman of the committee, Mr. Lamborn of 
Colorado, for 5 minutes.
    Mr. Lamborn. I thank you, Mr. Chairman. And this will be 
both for General Hyten and General Buck, but there is a 
difference between JICSpOC [Joint Interagency Combined Space 
Operations Center] and JSpOC [Joint Space Operations Center]. 
Can you explain why each one is--where it is at and what are 
the plans going forward, especially for JICSpOC, which is the 
newer of those two organizations?
    General Hyten. Yes, sir. For the record, the Joint Space 
Operations Center is at Vandenberg Air Force Base, California. 
It is the day-to-day operation center that is commanded by 
General Dave Buck, the commander of the joint force component 
under Strategic Command, to lead the day-to-day operations.
    And they have two fundamental missions that drive their 
focus: number one, they have to be organized, trained, and 
equipped to provide space support to theater warfighters around 
the world, and that is what they do tremendously well every 
day. And the second piece is they have to provide us 
situational awareness of everything that is going on in space. 
They end up providing that situational awareness for us and for 
users around the world, including international partners as 
well as commercial partners.
    What we realized is that if conflict does, God forbid, 
extend into space someday, we need to have the capability to 
focus on planning for that conflict. And so we decided that we 
would create an experimental organization at Schriever Air 
Force Base in Colorado, to look at experimentation of that 
conflict should it one day occur. We started that on the 1st of 
October and we continue to do that.
    The reason that Schriever Air Force Base was chosen was 
really for a very simple reason, is that Schriever Air Force 
Base has unique connectivity. We can talk about that 
connectivity in detail in the classified session, but basically 
the bottom line is it is connected to every national security 
ground station in the world from Schriever Air Force Base. That 
connectivity is essentially important so that you can respond 
real-time to concerns and contingencies that may arise in space 
someday.
    And so that is the basic reason why the JICSpOC, the Joint 
Interagency Combined Space Operations Center, was put at 
Schriever Air Force Base.
    Mr. Lamborn. Okay. Yeah, General.
    General Buck. Yeah. General, thank you, sir. I have nothing 
more to add. I think it was a very succinct answer and spot on.
    Mr. Lamborn. All right. Great. And then what is next for 
JICSpOC after the fourth and last experimental period in May?
    General Hyten. So after the fourth experimental period in 
the JICSpOC--well, actually we are going through that process 
right now. We have learned a great deal from the first three 
periods. We are continuing to look. We have proposals up to the 
senior leadership in the Department now about how we transition 
to a future construct.
    You will see in our 2017 President's budget that we have 
requested money, a small amount of money, for the JICSpOC, as 
well as continuing funding for the JSpOC and the JSpOC mission 
system. We believe that both of those will have a significant 
role in the future, but that role will be determined by the 
senior leadership in the Department as we come to the end, but 
those recommendations are coming forward now.
    Mr. Lamborn. Well, I am just really excited about the 
potential for the Department of Defense and the Intelligence 
Community [IC] working together in an organized, formal way for 
the first time ever when it comes to space.
    General Hyten. Well thank you, Congressman, for that 
statement, because to me that is the number one lesson learned 
from the JICSpOC right now, is that the critical partnership we 
have with the NRO and the Intelligence Community, it is better 
than I have ever seen it in my 35-year career. It is remarkable 
the progress that we are making, and that partnership is 
critical to the future.
    Mr. Lamborn. Would anyone from the Intelligence Community 
like to add anything?
    Mr. Calvelli. Yes. So as you know--and I couldn't echo 
better the words General Hyten said, but as you know, I mean, 
there are adversaries out there that are trying to deny our 
capabilities that we have in space and the decisive advantage 
that space gives us.
    The JICSpOC is an amazing effort between the IC and the DOD 
to share information, whether that is indications and warning, 
or whether it is on defensive kinds of maneuvers that we 
potentially could do, through a whole unity of effort between 
the two organizations.
    And to me from an IC perspective, the more information we 
have between ourselves to share information and protect our 
systems, the better off we will be. So it is a great 
opportunity, and it is a great teamwork between the IC and DOD.
    Mr. Cardillo. I would just quickly echo those comments on 
both ends. It is a synergy we haven't seen before. NGA 
[National Geospatial-Intelligence Agency] is fully 
participating in all of these experiments so that we can best 
serve the Nation.
    Mr. Lamborn. Thank you. And one last question. General 
Hyten, you are asking for $20 million for a ground enterprise 
to take 17 different interfaces for ground control systems and 
make one system, so training is much more consistent throughout 
the Air Force. Do you want to respond to that?
    General Hyten. So it is taking 17 different ground systems 
that we have right now, and not creating a single ground 
system, but creating a single interface and a single common 
structure, because today we have to train our airmen, top rate, 
17 different systems. That is inefficient, it is expensive, and 
it is also hard on our airmen.
    So we would like to have a common interface, a common 
structure that everything plugs into so that the ground systems 
of the future will all be built to plug into that same common 
interface as we walk into that. That is what we are really 
talking about, the enterprise ground. That is why it is a 
fairly small amount of money, because it is really engineering 
work, system engineering analysis that has to be done to define 
where we are going to go in the future.
    Because the money for the ground systems is actually in all 
these big programs, SBIRS, AEHF, GPS, they all have significant 
funding for the ground. The question is, how do we actually 
build that ground structure in the future so it is a common 
structure for our airmen to operate on.
    Mr. Lamborn. Thank you very much.
    General Hyten. Thank you, sir.
    Mr. Rogers. The Chair now recognizes the gentleman from 
Nebraska, Mr. Ashford, for 5 minutes.
    Mr. Ashford. Thank you, Mr. Chairman. I just have a brief 
question, if I might. I was out at STRATCOM [U.S. Strategic 
Command] last week and met with General Wilson, and he gave a 
great brief on all the issues they are dealing with. Could 
someone answer, I do--one of the areas we talked about, of 
course, and we talk about a lot in here is cyber and being able 
to stand up the force necessary by 2018 to address those 
issues. Could someone just give a comment, General, on where 
that is? General Hyten.
    General Hyten. So I actually think I am the only one on the 
panel that can, so I apologize to my panel members, but I have 
cyber underneath my command as well. And so part of our job in 
the Air Force is to man our section of the Cyber Mission Force, 
39 teams that we have to field. We are in the process of 
building those out right now.
    The Cyber Mission Force is a key element. It consists of 
national mission teams to protect the Nation, combat mission 
teams to support the combatant commanders, and cyber protection 
teams to defend our own capabilities.
    We are making progress. We are a little behind in the Air 
Force in stepping up to that. We have a training pipeline that 
is limited in how many people we can put through that. I know 
that commanders for Strategic Command and the commander of 
Cyber Command have both complained to my leadership about us 
going faster. We are doing everything we can to put extra 
capabilities, and figure out smarter ways to train our cyber 
professionals to get there.
    Mr. Ashford. Thanks, General. Could I ask one follow-up? Do 
you see a benefit, we had some discussions about, to ramp up 
the training, to provide additional training sites, additional 
training opportunities? Is that something you are thinking 
about doing?
    General Hyten. It is. In fact, the Air National Guard is 
standing up a new unit in Arkansas----
    Mr. Ashford. Right.
    General Hyten [continuing]. And one of the things we are 
looking at is how to better leverage the Guard as a total force 
to provide us additional training opportunities.
    Mr. Ashford. And I think Nebraska is one of those National 
Guard teams as well.
    General Hyten. Yes. And the Guard is a perfect partner in 
cyber, more than maybe any other mission, because it can be 
done from anywhere, it requires unique training, it doesn't 
require 24/7, because you can come in and come out. It is a 
perfect total force mission, and we are looking at new ways to 
leverage the Guard and the Reserve to do that.
    Mr. Ashford. Thanks, General.
    Thank you, Mr. Chairman.
    Mr. Rogers. I thank the gentleman. The Chair now recognizes 
Chairman Forbes for 5 minutes for any questions he may have.
    Mr. Forbes. Thank you, Mr. Chairman. Gentlemen, thank you 
for being here today.
    Earlier this month in a House Appropriations hearing with 
Secretary James and General Welsh, they were asked a question 
about eliminating single-point failures in space launch by 
continuing development of secondary launch sites at Wallops 
Island, Virginia, and Kodiak, Alaska, which help support small- 
and medium-class launches for DOD, civil, and commercial users. 
In response, General Welsh stated that, quote, ``As we look at 
the space enterprise and how we do it differently in the future 
as we look at more disaggregation, micro sats [satellites], 
cube sats, small sats, things that don't have to go from a 
large launch complex, I think proliferating launch complexes is 
going to be a natural outshoot of this.''
    He added, ``this is the kind of thing General Hyten is 
talking about. How do we change the game for the long-term.''
    General Hyten, as you know, Wallops and Kodiak represent 
the only other launch sites in the United States capable of 
launching to orbit outside of the Cape and Vandenberg. Could 
you please elaborate on General Welsh's comments about 
opportunities to make greater use of these space ports to 
support DOD missions?
    General Hyten. So the most important element in General 
Welsh's statement was the existence of smaller satellites and 
different satellite architectures in the future. We believe, 
and we have built something we call the Space Enterprise 
Vision, the joint vision with the National Reconnaissance 
Office, where we look at different ways of doing business in 
the future. And smaller satellites--not necessarily small, but 
smaller satellites are a key piece of that puzzle.
    One of the reasons that we only operate out of the Cape and 
Vandenberg today, Cape Canaveral in Florida and Vandenberg in 
California, is because the satellite processing facilities that 
are required in order to move those satellites onto the rockets 
only exist at the Cape and Vandenberg. We could not do that out 
of Kodiak or Wallops today.
    But as we move into a different structure where we have 
smaller satellites, and small satellites, and maybe cube sats 
as well as someday to do missions, we will need to take 
advantage of it. That also builds resiliency into our launch 
infrastructure. We have vulnerabilities when everybody knows 
that the only place that we launch our rockets from are at Cape 
Canaveral and Vandenberg. It is better to have more places to 
launch from.
    I will be going up to Alaska in 2 months to visit Kodiak. I 
look forward to that. I have seen Wallops in the past. I did 
Wallops missions way, way back when, when I was a captain. 
There are advantages of going there, but, again, the satellites 
have to be ready. It is satellites that drive the launch 
business, not the rockets. If the satellites are there, then 
the launch industry will respond to it.
    Mr. Forbes. Good. Thank you.
    Mr. Loverro, how are DOD space procurement policies taking 
into account the opportunities that newer orbital launch 
facilities like Wallops and Kodiak provide, and how can 
Congress support efforts to make sure these launch complexes 
are available to support small- and medium-class defense launch 
needs?
    Mr. Loverro. Sir, I think most of the policies that the 
administration has put forward definitely support both 
commercial and State-sponsored launch capabilities. So you have 
seen a proliferation, we have talked about Kodiak and Wallops 
today, but there are no less than 6 different States that have 
filed for space launch ports authority.
    I think this is a great example of the competitive nature 
of space launch and I think that this is a place that we should 
allow that industry to flourish by, again, encouraging the 
commercial world and the States to go ahead and make those 
investments.
    I will tell you, I agree with everything that General Hyten 
says, but I would also harken back to the question of what is 
the launch industry going to look like in the future that we 
answered when we talked about launch vehicles.
    If we don't have a large commercial space industry, if we 
only have the government space launch capability, we also can't 
maintain economically more than a couple of launch sites, so--
because launch sites are not free. They are just not pads that 
sit there by themselves. They have to be maintained. So there 
has to be enough throughput. And that goes back to what General 
Hyten said, you need--the satellites drive the launch 
infrastructure. Launch infrastructure doesn't drive the 
satellites.
    Mr. Forbes. Gentlemen, thank you.
    And with that, Mr. Chairman, I yield back.
    Mr. Rogers. I thank the gentleman. The Chair now recognizes 
the gentleman from California, Mr. Garamendi, for 5 minutes.
    Mr. Garamendi. Thank you, Mr. Chairman. Gentlemen, thank 
you very much for your testimony. And I wish we had several 
hours to go through it.
    General Hyten, is the Air Force and the military dependent 
upon GPS for virtually everything?
    General Hyten. I think the world is dependent on GPS. The 
military certainly is. We have built an amazing capability that 
fundamentally changed warfare. All precision warfare--most all 
precision warfare today is based on GPS. We still have laser-
guided munitions that we drop in certain areas, but most of the 
munitions we drop are GPS-guided. Most of our operations are 
GPS-fed. The timing signal that comes off GPS in some ways is 
more important than the navigation signal. So we are 
unbelievably----
    Mr. Garamendi. In fact, the ATM [automated teller machine] 
won't work without the timing----
    General Hyten. Your ATM won't work----
    Mr. Garamendi. No----
    General Hyten [continuing]. Gas, stoplights stop working.
    Mr. Garamendi. Do all of you gentlemen agree with that? You 
know, it is like--it has been said that GPS is the single point 
of failure, is that correct, for virtually everything that you 
have talked about here?
    General Hyten. It could be looked at as a single point of 
failure, but one of the things that we do is we build 
resiliency into our weapons systems, we have a backup inertial 
navigation system that we use in most of our weapons systems to 
allow us to do that. Nonetheless, GPS is a vulnerability, so we 
are looking at a number of different ways, we can talk about 
that in the closed hearing in more detail, but a number of 
different ways to ensure that we can continue to operate in a 
GPS-denied environment.
    Mr. Garamendi. Have you considered terrestrial-based 
timing?
    General Hyten. There are a number of terrestrial-based 
timing sources that are out there. eLoran [Enhanced Long Range 
Navigation] is one of the ones we are looking at across the 
coast. That is not a DOD system, but the Department of 
Transportation and the Coast Guard, in particular, are looking 
at that. That has significant benefits around our ports to 
reduce vulnerability of GPS.
    But in order for eLoran to work, there has to be eLoran 
receivers that can take the signals off of eLoran, because if 
you build eLoran and there are no receivers, it would be like 
building GPS without the GPS receiver.
    Mr. Garamendi. Are receivers possible to be built?
    General Hyten. Yes, they are. But, again, somebody has to 
invest in that money. The GPS market blossomed because there 
was a huge commercial market. The question you have to ask 
yourself for eLoran, and that is for somebody that is not on 
this panel, that is the Department of Transportation question. 
But what is the marketplace that will come for eLoran? It is 
probably shipping, those kind of people.
    Mr. Garamendi. Let's see. The Department of Defense is for 
defense?
    General Hyten. Department of Defense is for defense, 
absolutely, and that is why we are----
    Mr. Garamendi. So if somebody wanted to knock out our 
electrical systems or our communication systems or our 
financial systems, they would knock out the GPS, wouldn't they?
    General Hyten. They would.
    Mr. Garamendi. Is that a defense issue?
    General Hyten. That is a defense issue. That is why we look 
at that, that is why we are part of the national--Positioning, 
Navigation and Timing EXCOM [executive committee].
    Mr. Garamendi. Why did you write me a letter saying that 
there is no role for the Department of Defense for the eLoran 
system? Why is the Department of Defense not willing to spend, 
like, I don't know, $50 million a year to provide the 
foundational backup system to GPS? Why did you write that 
letter to me?
    Mr. Loverro. Sorry, sir. Is that to me? I didn't hear the--
who. It was addressed to me?
    Mr. Garamendi. Well, your name was on it, so----
    Mr. Loverro. Yeah. Okay. No. I just didn't hear if you said 
that was to me or not, so--sir, so there was not--so we do not 
have a Department of Defense requirement for GPS. You do know, 
and I----
    Mr. Garamendi. Well, we just established the fact that GPS 
is a--that the absence of GPS is a defense issue.
    Mr. Loverro. Yes, sir. There are many issues that trans--
that go ahead and transition from defense issues to national 
security issues. I would go ahead and----
    Mr. Garamendi. Ah, the Department of Defense is not a 
national security issue?
    Mr. Loverro. No, sir. I----
    Mr. Garamendi. Is that what you are saying to me?
    Mr. Loverro. I absolutely agree it is. As you know, I have 
told you that I wanted to look into this question more. I have 
done that. I still owe you a written paper on this, I 
understand.
    My sense is that eLoran is one of several capabilities that 
could help this issue, but I think the point that----
    Mr. Garamendi. And the other ones are?
    Mr. Loverro. The other ones are better GPS or GNSS [global 
navigation satellite systems] user equipment, local time 
sources. And, in fact, in many cases it is a combination of all 
three.
    Mr. Garamendi. Are they available?
    Mr. Loverro. Yes, sir, they are, because, in fact, the DOD 
is--in our own timing infrastructure, those are the kind of 
backups that we are putting into our infrastructure.
    The point that General Hyten, though, made is very 
important and I think it is instructive. You may not know that 
when we created the newest version of GPS, we created a second 
civil signal called L2 based upon the President's direction 
back in 1996, because many people believed the commercial world 
would adopt it. There are no L2 receivers available in the 
world today, because nobody feels it necessary to listen to the 
second civil signal.
    So I think their concern isn't so much what is the source 
of timing, which eLoran would be a good and appropriate source 
for the continental United States; I think the question is how 
do we make sure people adopt the receiver infrastructure to go 
ahead and make the source?
    Mr. Garamendi. I have got no time left, but let me just 
pose this question. You can send it to me in writing along with 
the other information you promised.
    Mr. Loverro. Yes, sir. I absolutely will.
    Mr. Garamendi. Have other countries and other parts of the 
world established a ground-based terrestrial timing system?
    Mr. Loverro. Sir, as a matter of fact, they did, and they 
have shut them down, because----
    Mr. Garamendi. All of them?
    Mr. Loverro. Yes. France, Norway, and----
    Mr. Garamendi. Russia and China?
    Mr. Loverro. Russia has a different system. I don't know 
about Russia's status, but France, Norway, and the U.K. [United 
Kingdom] have shut theirs down because of a lack of users. So 
the same problem that we----
    Mr. Garamendi. That is a longer question.
    Mr. Loverro. Yes, sir.
    Mr. Garamendi. I will get into it with you again.
    Mr. Loverro. Yes, sir.
    Mr. Garamendi. Thank you, Mr. Chairman.
    Mr. Rogers. I thank the gentleman.
    The Chair will point out now we have been called for votes. 
We are going to recognize Mr. Bridenstine from Oklahoma for 5 
minutes, and then we will recess and come back after this 
series of votes, which will be about 1 hour from right now.
    The gentleman from Oklahoma is recognized.
    Mr. Bridenstine. Thank you, Mr. Chairman.
    General Hyten, the Air Force has requested funding for a 
wideband SATCOM AOA [analysis of alternatives]. I think that is 
perfectly appropriate. And then we received information in news 
reports about the Air Force purchasing additional legacy 
satellites, WGS [wideband global satellite communications] 
satellites.
    How do we make sure that we, as a country, are taking 
advantage of the technological advances happening in the 
commercial sector? Of course, the AOA is what I thought that 
was what that was for, and now it doesn't necessarily appear 
that that is going to be the case. Can you share with us how 
you plan to make sure that we are taking advantage of the 
commercial advancements?
    General Hyten. Yes, Congressman. Thank you for the 
question.
    The real issue there is that the AOA is going to answer 
those questions. We have not made a commitment yet to build any 
more WGS satellites, not one, not two, not three. We haven't 
made any commitment along those lines. We won't make any 
commitments about what we are going to build next until we have 
done the analysis of alternatives.
    The analysis of alternatives is being structured through 
the staff right now. One of my panel members may be able to 
comment on those, especially those that work in the Pentagon. 
But it is critical that that AOA look at it across the board, 
and we are going to be demanding customers of the AOA to make 
sure that the commercial sector is properly looked at across 
the board, not just from a provision of capabilities 
standpoint, but from an opportunity to provide different 
capabilities that we may not think about.
    So that AOA is critical to defining the future. We are 
putting those--we want to make sure that that is done in a very 
time certain environment. We hope to get it done by March the 
17th so we can meet the congressional direction there. That is 
going to be a fast time to do an AOA, but the faster we do 
AOAs, the better they are, because AOAs that take a long time 
tend to be somewhat irrelevant by the time they are reported 
out.
    Mr. Bridenstine. Got it.
    And, Secretary Loverro, we have heard cost estimates from 
commercial operators and, of course, from the Department of 
Defense on WGS, and it doesn't seem to add up that we are 
getting apples-to-apples comparisons. Can you help us make sure 
that we are going to get apples-to-apples comparisons on the 
cost of commercial, vice military-owned and operated 
satellites?
    Mr. Loverro. Sir, absolutely. We have got to go ahead and 
do an apples-to-apples comparison. We have got to go ahead and 
include all the costs that are relevant to things like WGS. 
That is not always easy to do, because some of those costs are 
at third and fourth level, but we have to go ahead and do that, 
because otherwise we will get a skewed result from the 
analysis.
    Mr. Bridenstine. Okay. And, Secretary Loverro, in January 
in an interview with SpaceNews, you suggested that a civil 
agency should perform certain day-to-day nonmilitary space 
situational awareness [SSA] activities for commercial and 
foreign operators.
    Specifically you stated that, quote, ``The JSpOC's primary 
role should be to support U.S. and allied military space 
operations,'' unquote.
    Do you support building the capability of a civilian agency 
to obtain space situational awareness data and perform limited 
SSA activities for commercial and foreign operators?
    Mr. Loverro. Congressman, I do. So this is obviously a very 
important question. The DOD is not going to go ahead and give 
up our ability to go ahead and do SSA for our warfighting 
mission.
    At the same time, we recognize that to fully support our 
commercial industries, we need to go ahead and put that on a 
more civil footing, one that not only can go ahead and do space 
traffic monitoring, which is what we do from the JSpOC today, 
but some level of space traffic management. The Congress 
recognized this in their legislation last year, and I think we 
recognize it as well.
    So I know with my colleagues up here, we are all trying to 
figure out what the right balance is between that, how do we do 
that. I think we all believe this has got to start off with a 
crawl, a walk, and a run, which we would believe would begin 
with putting probably FAA [Federal Aviation Administration] 
personnel out at the JSpOC to help that function, but we 
recognize that the future is going to require that a civil 
agency take over this far larger and growing sector than we 
should support from the DOD.
    Mr. Bridenstine. Thank you.
    And, General Hyten, as the commander of Air Force Space 
Command, is performing space traffic management for the entire 
world in your mission statement?
    General Hyten. No, sir, it is not.
    Mr. Bridenstine. If a civil agency were to perform some 
space traffic management activities for non-DOD customers, 
would that make it easier or harder for airmen at the JSpOC to 
focus on deterring, fighting, and winning wars in space?
    General Hyten. That would make it easier, but I do have one 
comment about that, is that it is not in our mission to do 
those things, but what you have to realize is that we have to 
do those things in order for us to operate safely.
    So it is critical that we continue to perform the space 
situational awareness mission and critical that we have the 
ability to integrate that into all of our operations, but 
nonetheless, the ability to do space traffic management, like 
Mr. Loverro described, is not in our mission statement. We do 
it because we have to do it. Somebody has to do it for the 
world, but it is more a civil function than it is a military 
function.
    Mr. Bridenstine. Fantastic. I have got just a few seconds 
left, and so we will just take this for the record.
    Space and Missile Systems Center released an RFI [request 
for information] seeking input from industry on commercial 
weather data and services to meet DOD requirements. And 
basically it is a policy to buy data from the commercial sector 
to feed our numerical weather models and predict weather.
    Could DOD benefit from following NOAA's [National Oceanic 
and Atmospheric Administration's] pilot program approach to 
begin the process of establishing standards, testing 
integration, and eventually buying data and services for 
weather purposes?
    General Hyten. We will take it for the record, sir, but the 
answer is yes. We are going to use all data capabilities that 
we can. But we will take that and give you a detailed answer 
for the record.
    [The information referred to can be found in the Appendix 
on page 111.]
    Mr. Bridenstine. Okay. Thank you, Mr. Chairman.
    Mr. Rogers. I thank the gentleman.
    The Chair now calls that we will be in recess until about 
4:40, when we will return to this room.
    [Recess.]
    Mr. Rogers. The Chair calls the meeting back to order and 
recognizes the gentleman from Louisiana, Dr. Fleming, for 5 
minutes.
    Dr. Fleming. Thank you, Mr. Chairman.
    General Hyten and Mr. Weatherington, what is the Air 
Force's plan for ensuring optimal U.S. investment to replace 
the Russian RD-180 engine?
    General Hyten. So I can talk about the top level, and then 
I will let Mr. Weatherington talk about the acquisition 
strategy.
    But our basic overall plan is to develop public/private 
partnerships with industry to leverage the capability that we 
need to ensure that all the capabilities we need, for the 
future launch enterprise, exists when we need them, not just as 
soon as possible, to get off the RD-180.
    So that includes first-stage engines, it includes upper-
stage engines, it includes solid adjunct boosters as well as 
the solid main core. So we are looking at the entire enterprise 
to make sure that the enterprise will be ready when we get 
there.
    Mr. Weatherington. Yes, Congressman, I think it is also 
important to point out that for the U.S. Department of Defense, 
we do not procure actual launch systems. We procure that 
service. So the plan for the Department moving ahead, is to 
incentivize industry to partner with us to develop launch 
capability that will meet the full manifest requirements that 
DOD has.
    Now, as General Hyten has indicated, there are several 
different technologies that we need to invest in to get there. 
We need both main-stage engines, and we need upper-stage 
engines. But fundamentally, we need an integrated solution that 
will launch our satellites.
    Again, as General Hyten said, it is about the satellite, 
and the rocket will follow. So the strategy the Department has 
is to incentivize team in public/private partnerships with 
various commercial entities, either rocket integrators or in 
some cases specific subsystems.
    And the Air Force has done a great job of structuring the 
other transaction authority activities currently underway to go 
out and invest in those critical technologies we need with the 
plan that every one of those has a path to get to a rocket 
integrator and deliver us an integrated solution, likely in the 
2019, 2020, 2021 timeframe.
    Dr. Fleming. Are the specifications superior to the Russian 
RD-180 engine? In other words, do we end up with a better 
product if this flows properly?
    Mr. Weatherington. Well, again, sir, because we are not 
actually buying a rocket or even buying an engine, what DOD 
requires is a requirement to launch our full manifest. So 
today, as I think you are aware, we have two systems certified 
to do that today, Atlas and Delta, several variations of each 
of those systems, but they cover the entire manifest.
    Delta IV Heavy, which we use for our largest systems, is a 
fairly expensive system. Our goal in the development of these 
future launch systems is to bring that cost down, especially at 
the high end.
    Dr. Fleming. Uh-huh. Okay. And how do we maintain assured 
access and protect the taxpayers as we transition off that 
engine, the RD-180?
    General Hyten. So that is why our recommendation, sir, is 
to allow us to buy enough RD-180s to cover us through the 
transition period, because that will be significantly less cost 
to the taxpayer. As we talked about earlier, we don't know for 
sure what the cost will be if we go a different direction, for 
example, a Delta-Falcon mix.
    If we go a different direction, I believe that the cost 
will be measured in the billions. The Secretary stated that the 
estimates are up in $1.5 billion to $5 billion. That is true, 
but that spread in the estimates are all based on the 
assumptions. So if you make certain assumptions about where the 
industry is going to be, you can drive that answer to wherever 
you want. But I am confident that it will be a significant bill 
to the taxpayer if we need to do something in the transition 
period.
    But again to emphasize the point, we want off the Russian 
engine as fast as we can get, and that is why we put the 
program in place that we have.
    Dr. Fleming. Okay. Thank you. I yield back, Mr. Chairman.
    Mr. Rogers. I thank the gentleman.
    I believe the gentleman from Colorado is next up for 5 
minutes.
    Mr. Coffman. Thank you, Mr. Chairman.
    General Hyten and Lieutenant General Buck, can you discuss 
how funding for the 460th Space Wing and 233rd Space Group are 
prioritized within Air Force Space Command and JFCC Space 
[Joint Functional Component Command for Space]? Is it a top 
priority? Do you have any concerns that funding priorities will 
negatively impact our missile warning mission?
    General Hyten. So, I guess, the easy answer to that 
question--and I will let General Buck weigh in, but the easy 
answer is that missile warning is a survival mission for the 
Nation. So a strategic missile warning has been and will 
continue to be the highest priority mission that we have in 
Space Command. That is the mission of the 460th Wing, part of 
the mission of the 233rd.
    So as we look at those capabilities in the future, that 
will continue to be a high priority.
    General Buck. And the good news there, sir, is that we are 
putting some money into the infrastructure up there, as you 
know. We just replaced the UPS [universal power supply] up 
there because we had power issues, as you are tracking them, I 
am sure, not only in the survival of mission control center but 
also in the primary mission control center. So we have got our 
eye on the ball there, and we are very aware of how critical 
that mission is to the warfighter.
    Mr. Coffman. Okay. General Hyten, can you discuss a level 
at which the Air Force makes cost, schedule, and performance 
trade space decisions related to missile warning. Are there any 
instances where the Air Force and STRATCOM would have to 
sacrifice national missile warning responsiveness in order to 
reduce cost?
    General Hyten. So we will never trade off the strategic 
missile warning mission, because that is a survival of the 
Nation issue. So that can't be traded off. There is a 
discussion worth having about how much of the secondary 
missions you get from Overhead Persistent IR [infrared], in 
other words how much battle space awareness, how much technical 
intelligence, how much capability that you want to build.
    There is also an issue about how do you want to provide 
that capability. But the fundamental strategic missile warning 
capability that we have to have as a Nation cannot be traded 
off, and the commander of STRATCOM has told me that in person. 
And those capabilities will not be traded. That is a survival 
of the Nation issue.
    Mr. Coffman. Okay. Mr. Cardillo, last year, you released 
your commercial GEOINT [geospatial intelligence] strategy, 
which outlines how you intend to leverage our commercial space 
imagery, services, and analysis. Can you tell us what progress 
you are making so far this year, and can you tell us how your 
fiscal year 2017 budget request further enables your successful 
implementation of the strategy?
    Mr. Cardillo. We are in the learning and investigation 
phase of that overall strategy. We are doing it with our 
mission partner at the NRO, because whatever we end up deciding 
to do from that commercial market, as it matures and becomes 
viable, we are going to have to share how we store that data, 
how we move it around, how we intermingle it with our 
classified systems. And we can talk more about that in closed 
session.
    I have been very pleased with the reaction that we have 
gotten from industry to date. And so we are making small 
purchases to understand data types, and sensor types, and what 
kind of imagery sources they are collecting. As we learn more, 
but I must say too, as they become more commercially viable to 
create that market, we do intend, and in fiscal year 2017, 
pending Congress' budgeting, is to expand our ability to 
exploit that space.
    Mr. Coffman. Mr. Calvelli, in your written statement, you 
mentioned that NRO is improving space-based persistence, 
creating a, quote-unquote, ``thinking system'' called Sentient 
and developing a transformative future ground architecture. Can 
you discuss how Buckley Air Force Base and the Aerospace Data 
Facility, ADF-C [Aerospace Data Facility-Colorado], fit in 
these efforts?
    Mr. Calvelli. Sure. All of our ADFs are a major piece of 
how we operate our systems today and will continue to be for 
the future. What we are trying to do is to try to tie our 
systems together more closely, so instead of stovepipes of 
GEOINT or stovepipes of SIGINT [signals intelligence], it is 
sort of an integrated set of sensors in space, integrated 
ground providing data to our user community. The ADF-C, ADF-E 
[Aerospace Data Facility-East], ADF-Southwest will all play 
major roles in that in the future.
    Mr. Coffman. Thank you, Mr. Chairman. I yield back.
    Mr. Rogers. I thank the gentleman.
    I believe the gentleman from Oklahoma has one cleanup 
question. Is that what I was told?
    Mr. Bridenstine. I have got a couple----
    Mr. Rogers. Knock yourself out.
    Mr. Bridenstine. I wanted to ask, General Hyten, Air Force 
budget documents state that you will conduct an end-to-end 
over-the-air demonstration of protected tactical waveform [PTW] 
in mid-2019. The Air Force apparently delayed the initial 
launch capability of protected tactical service [PTS] by 3 
years until 2027. What factors account for the delay to PTS, 
and why is there an 8-year gap between full-up PTW demo and ILC 
[initial launch capability]?
    General Hyten. So the answer to the question, Congressman, 
is that we have yet to complete the protected SATCOM 
communication system AOA, the analysis of alternatives. Before 
we can start a program within the Department, we need to 
complete the AOA. The AOA is imminent. We have completed it. 
Mr. Kendall, the Under Secretary for Acquisition, Technology, 
and Logistics, has signed off on it, pushed that into CAPE 
[Office of Cost Assessment and Program Evaluation]. CAPE is now 
doing the sufficiency study. They have committed to completing 
that by April 15.
    But as we submitted our budget documents, we had to make 
some assumptions of what we thought the future was going to be. 
And to us, it looked clear that protected tactical waveforms 
will be part of the architecture in the future; therefore, it 
was important for us to pursue the pathfinder that you saw in 
the budget documents. And then the rest is to be determined.
    So we don't want to put a program in place without the 
proper analysis having been completed, and that will be 
complete here very shortly. And we will share that with the 
Congress when it is complete.
    Mr. Bridenstine. Okay. Last question, I have been told that 
prior to this RD-180 issue, a new low-cost, upper-stage engine 
replacement had been a high priority for your national space 
security launch needs. If this is true, how do you plan to 
address the upper-stage replacement, and is there a way to 
couple the development of this upper-stage engine, such as 
those already funded and developed through the Small Business 
Innovation Research program, in a matter that benefits 
replacement of the RD-180?
    General Hyten. So in the contracts we just let with 
industry, in those contracts, in those other transactional 
authority contracts, there are two pieces of it that look at 
upper stages.
    One is with SpaceX for their Raptor upper stage, and one is 
with the ULA [United Launch Alliance] for their ACES [Advanced 
Cryogenic Evolved Stage] upper stage. Both of those are 
required in their business plan in the future to allow them to 
access all the orbital requirements that we have to launch our 
entire manifest.
    So as you stated, the upper stage is extremely important. 
We have recognized that for a long time, long ahead of the RD-
180 issue. It is a challenge though to get the capabilities 
that we need out of those upper stages, but if we do it 
correctly, we will be able to move into a different 
architecture for the future that will be much more efficient 
because the upper stage will be more efficient in achieving 
multiple orbits.
    Mr. Bridenstine. And the last question, if the chairman 
will allow me, and this is for you as well, General Hyten, how 
does EGS relate to the requested protected tactical enterprise 
service?
    General Hyten. EGS being the enterprise ground system?
    Mr. Bridenstine. Yes, enterprise ground service.
    General Hyten. So the enterprise ground capability, as we 
look at the protected tactical waveform, what we are trying to 
get to with enterprise ground is we are trying to structure the 
process so that we can operate our satellites, perform 
telemetry tracking and controlling off of a common 
infrastructure in our ground system, so we can have our 
operators focus on providing the warfighting effect to the 
world to our entire force structure across the board as we look 
at that.
    So it is important that we move into an enterprise ground 
structure because that will free up our airmen to effectively 
operate the protected tactical waveform in a threatened 
environment as we go through. It is not that we can't do it on 
the legacy; we will be able to do it on the legacy, but in 
order for us to fully use our airmen capabilities, we need to 
structure the program so that we are focused on the effect that 
we are creating on the battlefields of the future, not on just 
flying the satellite.
    Mr. Bridenstine. Got it.
    Thank you, Mr. Chairman. I yield back.
    Mr. Rogers. The gentleman from Colorado has one cleanup 
question.
    Mr. Coffman. Thank you.
    Mr. Calvelli, and Mr. Cardillo, and General Hyten, are NRO, 
NGA, and Air Force Space Command getting what you need from 
Buckley Air Force Base in the city of Aurora? Is there anything 
else Congress can do to support your efforts at ADF-C?
    Mr. Calvelli. I will start and say, I think, we are in 
great shape out at ADF-C, and appreciate all the support out 
there from Aurora and the whole town.
    Mr. Cardillo. Mr. Calvelli is my landlord. I am a happy 
tenant. We are very pleased with the support we get from 
Buckley.
    General Hyten. And the 460th is everybody's landlord. And, 
you know, the whole issue recently about encroachment was a big 
concern of ours. That was just addressed this last week when we 
looked at the adjacent land and how we are going to deal with 
that in the future. That was the one, big issue that was 
hanging out there for Buckley, because, in many of our bases in 
the past, we have had encroachment issues that have really 
impacted our mission. I think the actions of the last week with 
the land around Buckley have really gone a long way to solving 
that problem for a very, very long term, perhaps forever. And 
that is where we need to be.
    So thank you, Congressman, for that help there.
    Mr. Coffman. Thank you, Mr. Chairman.
    I yield back.
    Mr. Rogers. I thank the gentleman.
    General Hyten, can you tell us about the status of the 
DMSP-19 [Defense Meteorological Satellite Program flight 19]?
    General Hyten. So the DMSP-19 is about dead. That is about 
as blunt as I could put it. A few weeks ago we lost the ability 
to command the satellite. The way DMSP satellites operate is 
they still broadcast tactical information, but we can't get the 
recorded information down to our users because we can't task 
the satellite, we can't command it anymore.
    When we can't command it anymore, that also means we can't 
take care of the satellite's health, keep it pointed in the 
right direction, keep it safe. So in the very near future, if 
we can't command it again, we will lose the satellite forever.
    Mr. Rogers. So should we launch DMSP-20?
    General Hyten. In a perfect world, Congressman, I would 
prefer to launch DMSP-20, but we received direction from the 
Congress last year to terminate that program. General Greaves 
in Los Angeles issued the order to terminate on the 30th of 
December, 2015. We are in that process. We will reach the point 
of no return in June of this year; that, after that point, the 
satellite will be torn apart and not able to be put back 
together.
    So I said last year in testimony that it was a difficult 
decision to recommend whether we wanted flight 20 or not, but 
we ended up recommending to the Congress that we launch flight 
20. I wish I would have been stronger in that, because the 
statement I made is that we need it if we have a failure, and 
it appears now we have had a failure.
    Mr. Rogers. Well, if it is important to get that capability 
up there, why isn't the Air Force working on a follow-on 
program to meet that capability?
    General Hyten. So we are working on a follow-on program--it 
is called the weather satellite follow-on capability--to meet 
the three elements of the needs. We also have a new tasker from 
the Joint Requirements Oversight Council, the JROC. General 
Selva sent us the tasker this last week to look at the first 
two gaps, which are cloud characterization and theater support; 
report back to him by the 1st of May whether the capabilities 
we have right now, given all the changes, will be able to 
support the requirements that we need. In that memo, he also 
supported the launch of DMSP flight 20.
    Mr. Rogers. Great.
    General Hyten, I am concerned about the loss of our 
transfer of spectrum and the impact on national security, 
particularly when I hear the chairman of the FCC [Federal 
Communications Commission] telling the satellite industry that, 
quote, ``it is more practical to get on the train than being 
run over by it,'' close quote.
    You may recall that your predecessor, General Shelton, 
testified from pretty much where you are seated right now and 
warned that a proposal under consideration by the FCC would 
have created extensive, harmful interference to GPS. Can you 
please describe for me your views on the proposal by the 
LightSquared or the company LightSquared or its successor 
Ligado?
    General Hyten. So I have heard Ligado has put forth a new 
proposal to use that spectrum. But I will tell you, 
Congressman, I have seen no data that supports the use of that 
frequency spectrum other than the data I saw in 2011. So the 
position of Air Force Space Command is the same as it was when 
General Shelton sat in that seat.
    I don't think that we should infringe on the GPS spectrum. 
That is a critical capability, not just for the military 
security of the Nation but for the entire economic well-being 
of this Nation. We can't allow that to happen.
    All that being said, is that we have an effort with the 
Department of Transportation in April of this year that we are 
going to go out and do some detailed testing on that spectrum 
area. We will then have a peer review in May and June of this 
year, and then we will go through a process where we will look 
at it and see what elements of those spectrum.
    Because we are trying to be good partners as we work at 
that, but the partnership has to be based on real testing, real 
impacts, and what the impacts on the national security are. And 
we cannot do something that will infringe on our national 
security, period.
    Mr. Rogers. All right. That brings the open portion of this 
hearing to a conclusion. We will now recess briefly while we 
move upstairs to 2216 for the classified portion.
    [Whereupon, at 5:01 p.m., the subcommittee proceeded in 
closed session.]

      
=======================================================================




                            A P P E N D I X

                             March 15, 2016
      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             March 15, 2016

=======================================================================

 
 
 
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
     

  

      
=======================================================================


                   DOCUMENTS SUBMITTED FOR THE RECORD

                             March 15, 2016

=======================================================================

      
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

      
  
      
=======================================================================


              WITNESS RESPONSES TO QUESTIONS ASKED DURING

                              THE HEARING

                             March 15, 2016

=======================================================================

      

           RESPONSE TO QUESTION SUBMITTED BY MR. BRIDENSTINE

    General Hyten. The NOAA pilot program is being closely followed by 
the DOD Weather Enterprise and we eagerly await the results to evaluate 
where we can benefit from a data acquisition model such as this. The 
DOD has already taken actions by releasing a Request for Information 
(RFI), soliciting the industry's intent and ability to develop, launch, 
and operate space based commercial services that could meet the 11 
weather capability gaps identified in the Spaced-Based Environmental 
Monitoring (SBEM) Analysis of Alternatives (AOA). Based on the industry 
responses to the RFI, there seems to be a viable existing/emerging 
vendor market that has the potential to provide the weather data that 
can satisfy a subset of SBEM AOA weather gaps. We will continue to 
evaluate the commercial data standards compared to the data currently 
provided by DOD, civil and international satellites, and determine if 
any changes in our DOD data enterprise would need to be made to 
accommodate integration of commercial data. Additionally, we will 
continue to address operational risks and long-term viability of 
commercial data sources.   [See page 15.]

?

      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                             March 15, 2016

=======================================================================

      

                   QUESTIONS SUBMITTED BY MR. ROGERS

    Mr. Rogers. What is the current state of the space acquisition 
workforce with regard to numbers of acquisition professionals and their 
acquisition management expertise? If there are shortcomings in the 
acquisition workforce, what is being done about them? What efforts are 
underway to enhance development of the space acquisition workforce?
    General Hyten. The Department of Defense has established a 
requirement for each acquisition workforce member to meet mandatory 
acquisition certifications when occupying an Acquisition Professional 
Development Program (APDP) Coded positions. For Space Program Managers, 
97% of the Acquisition Professional Workforce is certified.
    The Defense Acquisition Workforce Fund (DAWDF) implements targeted 
development efforts for the acquisition workforce. These efforts 
include targeted training for priority skill needs, initials skills 
courses, continuous learning, recruiting, coaching, training, and 
mission assistance. Over the past five years the Air Force has been 
benefited by leveraging over $60M across these efforts.
    Mr. Rogers. Cloud characterization and theater weather imagery are 
the top two most important certified requirements regarding space-based 
weather collection. What are the risks if these warfighter requirements 
are not met?
    General Hyten. The Air Force, other Services and Department of 
Defense (DOD) continue to assess the impacts of relying on civil and 
international partner for space-based environmental monitoring 
capabilities to address cloud characterization (CC) and theater weather 
imagery (TWI) needs, vice continuing an inherent DOD capability as a 
follow-on to the Defense Meteorological Satellite Program (DMSP).
    At this time, the Joint Requirements Council (JROC) has validated 
DOD materiel solution needs focused on other capability areas and 
identified that reliance on civil/international partner capabilities 
for CC/TWI is acceptable. However, the JROC wants to maintain awareness 
of issues surrounding those partner capabilities and warfighter 
concerns, primarily over the Indian Ocean region (JROCM 092-14, dated 3 
September 2014). If there is no weather satellite coverage in this 
theater, warfighter concerns cover the full range of military 
operations, such as tropical cyclone assessments, resource protection 
(i.e. warnings for thunderstorms, severe weather, and heavy 
precipitation) and tactical operations (e.g. aircraft, land and naval 
maneuvers).
    On 3 March 2016, the JROC issued a memorandum titled ``Space Based 
Environmental Monitoring Gap Coverage'' (JROCM 012-16) that directs the 
Air Force, along with the Office of the Secretary of Defense Cost 
Assessment and Program Evaluation and the Principal DOD Space Advisor's 
Office, to complete a risk assessment and determine non-materiel 
options for addressing the CC and TWI gaps, taking into account recent 
programmatic, threat and operating environment changes. The Air Force's 
intent is to brief results to the Joint Capabilities Board no later 
than 1 May 2016, as directed.
    Mr. Rogers. With the delays of both GPS III and OCX, when does the 
Air Force plan to deploy Military code (M-code) signal capability? What 
is the risk of not sustaining the current, as well as required, levels 
of GPS service, and what is being done about this risk? a. What 
measures is the Air Force taking to address problems with GPS OCX 
software development in order to minimize further cost and schedule 
growth?
    General Hyten. At this time, we currently have an M-code test-only 
capability since we have 19 M-code capable satellites on orbit. In 
order to deliver an initial operational M-code signal capability, we 
need an M-code command and control capability in the ground system and 
a global M-code monitoring network. This is planned to be delivered 
with OCX Block 1 in July 2021. In order for this signal capability to 
be operationally useful, we will need fielded M-code capable receivers 
in DOD weapon systems. The services are mandated to procure only M-code 
capable receivers after FY17.
    The M-Code signal is already being broadcast by 19 satellites (12 
Block IIF, 7 Block IIR-M) on orbit, which fulfills the satellite 
constellation portion of an initial operational M-code capability. 
While there have been delays in the GPS III program, the program is 
planned to have satellites available for launch ahead of the ground 
system's capability to launch them.
    The Next-Generation Operational Control System (OCX) will provide 
command, control and mission support for the GPS III and legacy 
satellites' M-code capability using an expandable robust information 
assurance architecture. OCX is critical to continuing high priority 
national efforts to modernize GPS with new military and civil 
positioning capabilities, including enhanced security, precision, 
reliability and integrity. As a mitigation of risk for late delivery of 
OCX, on 3 February, the GPS Directorate put Contingency Ops (COps) on 
contract with Lockheed Martin. COps is a modification to the legacy 
ground system that will allow us to command, control and operate the 
GPS III satellite at a GPS IIF capability-level until OCX Block 1 is 
ready for operations in July 2021. As a contingency effort, COps does 
not change M-Code capability; rather, it enables growth of the M-Code 
capable satellite constellation. COps delivery is planned for April 
2019.
    Finally, worldwide M-code signal monitoring is a required piece of 
an operational M-code capability. This capability is projected to 
deliver as a part of the OCX program in July 2021. We also are studying 
options for a contingency worldwide M-code monitoring program that 
could deliver ahead of OCX.
    There is no credible risk of not sustaining the current and 
required level of GPS service because the likelihood is so low. The 
satellite constellation is healthy, with 31 satellites in service and 
the requirement is to have a 95% probability of at least 24 operational 
satellites and a 98% probability of at least 21 GPS satellite 
constellation slots broadcasting a healthy signal (in order to meet 
these requirements, the Air Force's practice is to maintain at least 27 
operational satellites). GPS III satellites are on track to maintain 
the current levels of service and provide enhanced anti-jam 
capabilities for greater resilience. The current ground system is 
proactively maintained to sustain current operations and shore up cyber 
defense/security until OCX is operational.
    The Air Force has taken a very active role in the management of OCX 
in order to minimize further cost and schedule growth through three 
major actions. First, the Air Force increased Government oversight at 
all levels (PM-weekly, PEO--bi-weekly, AQ--monthly, USD(AT&L) & SECAF--
quarterly) to drive contractor performance. Second, we established 
shoulder-to-shoulder testing with government reps in plant. This helps 
eliminate coordination and approval delays and provides additional eyes 
on the processes. Third, we developed technical off-ramps should poor 
performance continue.
    Mr. Rogers. What is the status of your efforts for consolidating 
the acquisition of commercial satellite communication services across 
the Department of Defense into a single program office or under the 
direction of a senior DOD official?
    General Hyten. The Defense Department is continuing to investigate 
the courses of action concerning FY16 NDAA Sec 1610 that addressed 
wideband consolidation, with the Air Force as a stakeholder.
    Mr. Rogers. Please explain how implementation of the Space 
Enterprise Vision will improve the affordability, resilience, and 
capability of the future national security space architecture.
    The Space Enterprise Vision will drive future operations, 
acquisitions, and programming decisions which support the national 
security space architecture. Air Force Space Command is working 
directly with the National Reconnaissance Office and folding in the 
Army, Navy and Joint equities per the direction of the Defense Space 
Council. When AFSPC developed the SEV warfighting construct for space, 
we identified the need for several follow on studies in order to 
determine how to attain a resilient and affordable space enterprise 
before 2030. For example, the strategic missile warning and satellite 
communication study is currently underway, and will determine how we 
support the nuclear command and control mission with respect to 
affordability, resilience, and capability.
    Mr. Rogers. Some assert that ``disaggregation'' will result in more 
affordable, capable, or resilient space systems. On what specific 
analysis(es) is this judgment based? Please provide a copy of the 
relevant analysis(es) to the committee.
    General Hyten. The Protected SATCOM Services (PSCS) Analysis of 
Alternatives (AOA) Final Report recently received an assessment from 
the Office of the Secretary of Defense (OSD)-Cost Assessment and 
Program Evaluation (CAPE) and was provided to Congress on 18 April 
2016. CAPE concluded the AOA complied with the guidance issued and is 
analytically sufficient to inform future acquisition decisions. While 
CAPE's assessment called out an aggregated satellite constellation as 
most cost-effective, the assessment left room for a possible 
disaggregated constellation based on some additional challenges that 
are being addressed in two additional studies. Specifically the PSCS 
AOA Follow-on for Resiliency (PAFR) study and the Space Enterprise 
Vision (SEV) Strategic Missile Warning and Satellite Communications 
Focused Study.
    The PAFR Study is nearly complete and will provide additional 
analysis and recommendations in three key areas:
    1) Analyzing and costing specific survivability capabilities for 
protected SATCOM architectures, 2) Further analyzing follow-on options 
for the Enhanced Polar System (EPS), and finally 3) Further inform the 
pros and cons for aggregated and disaggregated space systems.
    The current SEV study will provide specific recommendations for a 
resilient space enterprise that can deter aggression within the space 
domain and prevail in any high-end conflict that extends to space. This 
study is using data supplied by previously mentioned studies and the 
SBIRS Follow-on AOA, and will deliver a strategy for countering threats 
to the space domain that will take into account any contributions from 
an aggregated or disaggregated architecture.
    Upon completion and approval of the study, we will provide the 
analysis to the committee.
    Mr. Rogers. What are the challenges in managing multiple new 
simultaneous satellite procurements?
    General Hyten. The nature of the emerging threats in space will 
require us to assess the risks in developing and fielding new, 
resilient capabilities simultaneously. We do not have the luxury of 
time to field the elements of the Space Enterprise Vision sequentially. 
The simultaneous approach will enable common technical approaches for 
resiliency across the various space architectures.
    Managing these efforts will require programs to be adequately 
resourced, both in personnel and funding, to ensure success. Limited 
resources can severely affect the trade space available to address 
unforeseen technical or acquisition issues all at the same time. To 
mitigate this risk, Space and Missile Systems Center has implemented a 
Tiered approach across the mission areas and programs to ensure 
resources are allocated to our most critical programs that meet the 
Space Enterprise Vision, to include both Government and Industry 
resources.
    Mr. Rogers. Is the Air Force Space Command and the National 
Reconnaissance Office taking different approaches to improve the 
resilience and assurance of the national security space architecture? 
If so, why?
    General Hyten. No. AFSPC and NRO are taking an integrated approach 
to improve resilience and mission assurance of the national security 
space architecture. AFSPC and NRO have jointly developed a Space 
Enterprise Vision that describes a combined approach to improving 
resilience and mission assurance. The two organizations are in the 
processes of establishing a joint approach to governing the planning 
and development of space mission architectures and capabilities to 
realize these improvements.
    Mr. Rogers. What affect will disaggregation of nuclear and non-
nuclear missions have on an adversary's risk calculus regarding 
attacking U.S. space assets? Will it lead to less complicated and/or 
lower the threshold for attacking space systems supporting the United 
States' ability to project power with non-nuclear forces? If so, are 
you concerned that disaggregation could weaken deterrence and foster 
crisis instability?
    General Hyten. Credible arguments have been made that support cases 
both for and against disaggregation versus aggregation of nuclear and 
non-nuclear missions and the potential impact this one factor could 
have on adversary decision calculus to attack or refrain from attacking 
U.S. space assets. Our adversaries understand the competitive advantage 
we derive from space. Whether our systems are aggregated or 
disaggregated, all our space systems are being put at risk by various 
kinetic and non-kinetic threats. While it's possible that 
disaggregation could lower the threshold for adversaries to attack 
systems that only support non-nuclear forces, we also have to weigh the 
possible advantages that disaggregation lowers the risk of adversary 
attack to space systems dedicated to nuclear warning, and command and 
control while providing additional options that could increase the 
resilience capacity and survivability of space systems dedicated to 
support non-nuclear forces. We need to ask ourselves to what extent 
would it be prudent to continue to assume that different potential 
adversaries with different strategic interests and differing decision 
calculus will decide to refrain from attacking U.S. space systems that 
support non-nuclear missions because they are aggregated with our space 
systems that support nuclear command and control and strategic missile 
warning. It can be credibly argued that aggregation, not 
disaggregation, may foster increased crisis instability since U.S. 
policy makers will not be able to discern an adversary's intent if an 
aggregated space asset was attacked, that is whether or not such an 
attack was intended to be limited to degrading U.S. non-nuclear forces 
or whether such an attack was intended to purposefully degrade 
strategic missile warning and nuclear command and control assets as a 
prelude to attacking the United States of America with nuclear weapons.
    Mr. Rogers. Do you support establishing so-called ``red lines'' 
through declaratory policy statements to refrain from deliberate 
interference with nuclear command, control, and communications or early 
warning space systems?
    General Hyten. Attacks on national or military infrastructure is 
always a serious matter; however, we must be cautious about formally 
declaring ``redlines.'' Based on Presidential direction, there are 
various degrees of consequences we can take militarily when we are 
attacked, but signaling what those are, or at what point we will take a 
particular action, does not enhance our deterrent posture. Maintaining 
a level of opacity is to our advantage. The present state of mutually 
shared thresholds in space developed over time during the Cold War. It 
was well understood by all parties that interfering with nuclear 
command and control or strategic warning systems was extremely risky 
and could be interpreted as a prelude to conflict. This position was 
reinforced through treaty agreements and national technical means that 
created some level of transparency between the United States and the 
former Soviet Union.
    However, in the years since the Cold War, we have seen multiple new 
actors with the ability to put dangerous capabilities on-orbit or 
otherwise hold space assets at risk. As the days of mutual bi-lateral 
balance of power in space faded, so did the ability to effectively 
establish an ``off limits'' position with respect to strategic 
capabilities. Well-known nuclear thresholds can be reinforced, but it 
must be backed up with the ability, and national will, to respond. This 
is one of the reasons we must pursue new ways of ensuring these systems 
can operate effectively despite being threatened or challenged.
    Mr. Rogers. Do you believe that Russia or China will honor 
international norms to refrain from deliberate interference with 
nuclear command, control, and communications or early warning space 
systems in the event of crisis or conflict with the United States?
    General Hyten. Negotiations in the United Nations have shown that 
Russia and China are resistant to entering into any formal 
international norms agreement for space. We have seen increasing 
military ``adventurism'' from both countries and feel that crossing 
previously established red-lines would be considered if they felt it 
was in their best interest and supported bold strategic objectives. It 
is therefore up to us to deter these actions and communicate our 
national will to respond.
    Effective deterrence is created through a position of strength. We 
are pursuing new ways to both field the ability to respond and deny the 
benefits of an attack. We are also being transparent in our plans and 
actions so that potential adversaries will know that hostile actions in 
space will not be effective and will have very negative consequences.
    Mr. Rogers. What are you doing to ensure the right policies are in 
place so that emerging commercial space capabilities help our national 
security and don't hurt it?
    Mr. Loverro. The Department recognizes that U.S. national security 
in space and elsewhere is critically dependent on a robust and 
innovative commercial sector. A centerpiece of our overall space policy 
and strategy is to eliminate barriers constraining that innovation. We 
must balance that interest with any possible negative national security 
impacts of these activities. This tension has been the focus of 
departmental thinking over the last three years and is the exact reason 
why the Secretary and the Administration supported relaxation of 
commercial remote sensing standards in 2014. As a department, we have 
aggressively worked with the intelligence community, NOAA, NASA, and 
the FAA to find ways to approve activities such as on-orbit servicing, 
commercial SSA, and even on-orbit imaging, establishing the right 
safeguards to protect national security while enabling commercial 
innovation.
    Beyond simple policy changes, the Department of Defense is also 
pressing forward with activities to harness better these commercial 
innovations for DOD use. Such is the purpose of our funded commercial 
communications pathfinder work and hosted payload concepts being 
explored in many mission areas. In fact, a key element of our thinking 
on disaggregation is to open up greater portions of our space 
architecture to commercial-like solutions.
    Finally, we are actively supporting FAA in establishing the right 
oversight structure for commercial and entrepreneurial space activities 
that will support necessary flight safety needs to assure that we do 
not constrain the US commercial space renaissance due to future on-
orbit collision risk.
    Addressing this challenge is one of the most important strategic 
tasks facing the Department because too great an erosion of our 
technological superiority would ultimately undermine our conventional 
deterrence, contribute to crisis instability, and greatly raise the 
potential cost of any future U.S. military operation. That's why the 
Department is exploring new ``offset strategies''--with new 
combinations of technologies, operational concepts, and organizational 
constructs--to maintain our ability to project overwhelming combat 
power into any theater and at the times of our own choosing. This 
includes reviewing and updating appropriate policies to ensure 
continuous innovation of commercial space capabilities without 
adversely affecting national security.
    Mr. Rogers. Some assert that ``disaggregation'' will result in more 
affordable, capable, or resilient space systems. On what specific 
analysis(es) is this judgment based? Please provide a copy of the 
relevant analysis(es) to the committee.
    Mr. Loverro. As in most areas, blanket statements on the 
effectiveness of any tool needs to be carefully examined. This is 
especially true for disaggregation, which has been used to mean many 
things in many contexts. The DOD White Paper, ``Space Domain Mission 
Assurance: A Resilience Taxonomy'' defines disaggregation as ``the 
separation of dissimilar capabilities into separate platforms or 
payloads''. An example of this would be separating tactical and 
strategic protected satellite communications.
    Disaggregation may serve many purposes, of which cost, capability, 
and resilience are just some. In the DOD, most discussions of 
disaggregation, first and foremost, begin with a discussion of the 
policy and deterrence benefits of separating strategic nuclear 
warfighting and tactical conventional warfighting capabilities and then 
examine the resulting cost, capability, and resilience impact of that 
architectural decision. In the protected communications example, 
separating tactical and strategic protected satellite communications 
may help mitigate the risk of uncontrolled escalation during a crisis 
or conflict without necessarily bolstering resilience.
    The exact effects of disaggregation--positive or negative--on 
resilience, cost, system capability, performance, and other 
considerations would depend on the specific system and the 
disaggregation approach. It would be expected that in some cases, 
disaggregation would actually increase the cost of the total system, 
although individual system elements might be less expensive. Such was 
the case in the recently delivered Analysis of Alternatives on 
Protected Communication, which judged an overall increase in cost to 
fulfill all protected communication requirements for a disaggregated 
system, although specific elements, such as the NC3 portion, decreased 
in cost substantially. On the other hand, the missile warning AOA 
statement showed little to no increase in overall cost for 
disaggregation. Both AOA reports have been delivered to Congress.
    The bottom line is that disaggregation is just one of several 
strategies for addressing tension between strategic deterrence, cost, 
performance, resilience that must be foundational in our future space 
activities. Disaggregation may cost more in some cases. But this added 
cost may be acceptable if it restores strategic clarity, reduces the 
likelihood of unintentional escalation and provides more flexibility 
for addressing the rapidly changing space threat and technology 
landscape we expect in the future.
    Mr. Rogers. What affect will disaggregation of nuclear and non-
nuclear missions have on an adversary's risk calculus regarding 
attacking U.S. space assets? Will it lead to less complicated and/or 
lower the threshold for attacking space systems supporting the United 
States' ability to project power with non-nuclear forces? If so, are 
you concerned that disaggregation could weaken deterrence and foster 
crisis instability?
    Mr. Loverro. It is accurate that several observers have suggested 
that disaggregating strategic and tactical space systems may lower the 
threshold for attacks on the resulting non-nuclear system elements. The 
converse is also correct that it would raise the threshold for attacks 
on the nuclear elements. Thus, disaggregating creates greater clarity 
of adversary intent, increases nuclear stability, reduces the potential 
for unintended escalation, and assures the President of this ability to 
command and control strategic forces, but at the expense of a 
potentially lowered threshold of attack in a non-nuclear elements.
    So, any decision to disaggregate must therefore address how that 
potentially decreased threshold will be restored. Other elements of 
space mission assurance, such as incorporation of commercial and allied 
systems, defensive measures, proliferation, and diversity may be 
required to address that consequence. Each of these elements provides 
added strategic benefit, in addition to the ultimate benefit of 
strategic clarity and avoidance of unintended escalation that current 
aggregated architectures pose.
    Mr. Rogers. Do you support establishing so-called ``red lines'' 
through declaratory policy statements to refrain from deliberate 
interference with nuclear command, control, and communications or early 
warning space systems?
    Mr. Loverro. Removing ambiguity, especially as it relates to 
nuclear command, control, and communication and missile warning, can 
greatly enhance stability and reduce the likelihood of unintentional 
crisis escalation. However, the method used to remove ambiguity is also 
important. So called ``red lines'' have not been demonstrated to 
achieve consistently the strategic benefits desired. Thoughtful and 
deliberate bi-lateral discussions that ensure our position about 
nuclear-related space systems is clear, complimented by clear lines of 
distinction in system character, are more likely to achieve a 
meaningful understanding of restraint.
    Mr. Rogers. Do you believe that Russia or China will honor 
international norms to refrain from deliberate interference with 
nuclear command, control, and communications or early warning space 
systems in the event of crisis or conflict with the United States?
    Mr. Loverro. Norms of behavior shape the international community's 
understanding of responsible and irresponsible behavior in outer space 
and of expected reactions if these norms are broken. By establishing 
clear U.S. norms against purposeful interference with nuclear command, 
control, and communications or early warning space systems, then a 
country violating those norms would be sending a clear signal of its 
intentions. The Administration would take very seriously any 
interference with the nuclear command, control, and communications and 
early warning space systems of the United States and our allies, 
whether in peacetime, crisis, or conflict, and may consider such action 
to be escalatory in nature. But we must be clear on norms in and of 
themselves will not dissuade an adversary intent upon escalating 
conflict to nuclear levels from attacking U.S. strategic space system. 
They clarify understanding on both sides, just as it was the case 
during the Cold War, but must be backed up by other means to assure 
strategic space services can continue to support U.S. strategic needs 
even following attack.
    Mr. Rogers. The committee has been informed that the only remaining 
strategic radiation hardened microelectronics foundry does not have 
enough orders to remain economically viable after this year. What 
options does DOD have to ensure access to strategic radiation hardened 
microelectronics--both now and if this foundry closes? What level of 
funding would be necessary to keep that foundry open, and what 
resources would be necessary to ensure the long-term viability of that 
source?
    Mr. Loverro. The Department is acutely aware of this issue and 
USD(AT&L) is leading the effort to actively address it. The Department 
will follow its policy, guidance, and best practices as described in 
DOD Instruction 5000.60, ``Defense Industrial Base Assessments,'' July 
18, 2014. AT&L is pursuing a number of Department-wide and program 
specific methods to address this problem such as, where appropriate, 
lifetime buys or tailored assurance activities for non-US success. AT&L 
is best positioned to provide details on specific strategies and 
funding needs.
    Mr. Rogers. What is the current state of the space acquisition 
workforce with regard to numbers of acquisition professionals and their 
acquisition management expertise? If there are shortcomings in the 
acquisition workforce, what is being done about them? What efforts are 
underway to enhance development of the space acquisition workforce?
    Mr. Weatherington. The Department's budget request would ensure the 
acquisition workforce remains mission capable. While the Department 
tracks the qualifications and expertise of its overall acquisition 
workforce, it does not subdivide the workforce by domain (e.g, ships, 
aircraft, space). As such we do not track a ``space acquisition 
workforce'' separately. DOD has established a requirement for each 
acquisition workforce member to meet mandatory acquisition 
certifications when occupying an Acquisition Professional Development 
Program (APDP) Coded positions. For Space Program Managers, 97% of the 
Acquisition Professional Workforce is certified.
    The Defense Acquisition Workforce Fund (DAWDF) implements targeted 
development efforts for the acquisition workforce. These efforts 
include targeted training for priority skill needs, initials skills 
courses, continuous learning, recruiting, coaching, training, and 
mission assistance. Over the past five years the Air Force has been 
benefited by leveraging over $60M across these efforts.
    Mr. Rogers. Cloud characterization and theater weather imagery are 
the top two most important certified requirements regarding space-based 
weather collection. What are the risks if these warfighter requirements 
are not met?
    Mr. Weatherington. If these warfighter requirements are not met by 
civil or international assets once the Defense Meteorological Support 
Program ends, the Department of Defense may experience decreased 
battlespace awareness for imaging quick-moving weather systems such as 
thunderstorms, dust storms, frontal activity or tropical cyclone 
assessments, and worldwide cloud forecasting. Missions such as resource 
protection, transiting aircraft and shipping, anti-submarine 
operations, Intelligence Surveillance, and Reconnaissance collections, 
and Navy/Army/Air Force Coalition tactical operations could be 
moderately affected. Central Command, Pacific Command, and Africa 
Command would be most impacted by the increased risk of these gaps not 
being met, primarily over the Indian Ocean region. Worldwide coverage 
in austere and data-sparse areas benefits most from space-based weather 
collection. The Department is currently re-addressing the requirements 
for cloud characterization and theater weather imagery.
    Mr. Rogers. What is the status of your efforts for consolidating 
the acquisition of commercial satellite communication services across 
the Department of Defense into a single program office or under the 
direction of a senior DOD official?
    Mr. Weatherington. [The information referred to is classified and 
retained in the committee files.]
    Mr. Rogers. Some assert that ``disaggregation'' will result in more 
affordable, capable, or resilient space systems. On what specific 
analysis(es) is this judgment based? Please provide a copy of the 
relevant analysis(es) to the committee.
    Mr. Weatherington. Disaggregation has been used to mean many things 
in many contexts, resulting in considerable confusion surrounding the 
term. In September 2015, the Office of the Assistant Secretary of 
Defense for Homeland Defense and Global Security authored the 
Department of Defense White Paper, `Space Domain Mission Assurance: A 
Resilience Taxonomy', in order to provide a standard lexicon for space 
domain mission assurance. According to this taxonomy, ``Disaggregation 
is defined as the separation of dissimilar capabilities into separate 
platforms or payloads. An example of this would be separating tactical 
and strategic protected satellite communications. It should be noted 
that disaggregation may serve, and be justified by, a variety of 
purposes that are worthy in and of themselves, but which may not relate 
to resilience. Separating tactical and strategic protected satellite 
communications, for example, may help mitigate the risk of uncontrolled 
escalation during a crisis or conflict without necessarily bolstering 
resilience. Further, disaggregation can also apply in other cases to 
reduce the complexity of systems, making it easier to implement other 
resilience characteristics. In this respect, disaggregation is a means 
to an end; not bolstering resilience directly, but allowing it to occur 
more readily.''
    The exact effects of disaggregation--positive or negative--on 
resilience, cost, system capability, performance, and other 
considerations would depend on the specific system and the 
disaggregation approach. For example, two recently concluded Analyses 
of Alternatives (AOA)--one for Protected Satellite Communications 
Systems and a second for Space Based Infrared System Follow-on--
examined the trade-offs of some disaggregated architectures among the 
possible alternatives. The final reports for these AOAs have previously 
been provided to Congress.
    Mr. Rogers. What are the challenges in managing multiple new 
simultaneous satellite procurements?
    Mr. Weatherington. Even as we complete deployment of our current 
satellite constellations, we are deliberately planning for procurement 
of the replenishments/replacements for our Military Satellite 
Communication, missile warning, and weather capabilities. This planning 
addresses a number of architectural and business challenges.
    We are evaluating resiliency measures against jamming, cyber, and 
on-orbit threats. We are assessing the value of disaggregation for 
resiliency, strategic messaging, and reducing costs. In addition, we 
are balancing the strategies of leveraging commercial and international 
capabilities versus maintaining inherent U.S. Department of Defense 
capabilities. We are evaluating insertion of newer technologies to meet 
emerging Department needs ?versus acquiring functional equivalents, 
which could result in less cost, schedule, and technical risk. As 
always in our major defense acquisition programs, we are enabling 
competition to the maximum extent possible and paying attention to 
industrial base issues and considerations. We are assessing the 
prioritization of systems in terms of risk and threats to ensure 
limited Department resources are available to study, evaluate, and 
execute systems. Capability options for systems selected will be 
applied in the most effective and efficient manner.
    Mr. Rogers. The committee has been informed that the only remaining 
strategic radiation hardened microelectronics foundry does not have 
enough orders to remain economically viable after this year. What 
options does DOD have to ensure access to strategic radiation hardened 
microelectronics--both now and if this foundry closes? What level of 
funding would be necessary to keep that foundry open, and what 
resources would be necessary to ensure the long-term viability of that 
source?
    Mr. Weatherington. No strategic radiation hardened microelectronics 
foundry has notified its Department of Defense customers of a decision 
to discontinue operations or the end-of-life of specific parts or 
processes. If and when one does, the Department will follow defense 
industrial base assessments and the diminishing manufacturing sources 
and material shortages processes that provide a range of mitigation 
options, such as life time buys. Estimated costs associated with 
maintaining foundry capabilities and access required for the production 
of the parts required by Department customers cannot be calculated 
without foundries providing additional business and technical 
information. These estimates vary widely and depend to a great extent 
on the commercial marketplace's support of specific process 
technologies, feature sizes, and performance features.
    Mr. Rogers. What are the foreign threats to our space systems? What 
are we doing about the growing foreign threat to our space systems?
    General Buck. Today the United States' space enterprise faces a 
wide spectrum threats from interference with the signals that carry 
information from orbit to end users, such as GPS signals or satellite 
communications, to the use of directed energy against our space-based 
ISR capability, to the development of kinetic options against on-orbit 
platforms . . . these threats continue to proliferate. To address these 
threats, we continually seek ways to make our architectures more 
resilient and able our space-based systems to `operate through' any 
contested, denied, or operationally limited environment. From a more 
`whole of government' approach, JFCC SPACE continues strengthen 
relationships with the interagency and mature our international 
partnerships with like-minded, space-faring nations toward increasing 
overall deterrence by demonstrating that an attack on a U.S. space 
capability is an attack on global stability and that assured access to 
space by all is a global concern.
    Mr. Rogers. The growing congestion in the space environment, 
including the increasing number of small satellites such as cubesats, 
has raised concerns about the potential for increased space debris. 
What is DOD doing to track objects such as cubesats, minimize the 
possibility of collision among its space assets, and improve tracking 
of space debris?
    General Buck. To track; and improve tracking of debris:
    DOD employs the global Space Surveillance Network (SSN) to track 
objects in all orbital regimes and receives on average over 400,000 
observations each day. The SSN is a mix of optical, mechanical radar, 
phased array radar, and space-based assets which provide the backbone 
of the U.S. Satellite Catalog.
    The SSN's day to day operations are managed from the JFCC SPACE's 
Joint Space Operations Center (JSpOC) that optimizes these resources to 
sufficiently track and report high interest events such as human 
spaceflight, potential adversary actions, launches, and reentries, in 
addition to normal space flight activities. The observations on these 
high interest events and objects are transmitted to the JSpOC for 
analysis and used to build the total space situational awareness (SSA) 
picture by layering positional information with additional sources such 
as operator provided ephemeris or intelligence.
    To improve overall tracking, a notable upgrade is the new Space 
Fence, scheduled for operations in 2018, which I believe is the most-
significant improvement to low- and medium-earth orbit SSA capabilities 
in decades. By some estimates, the Space Fence will improve our catalog 
awareness from 23,000 to over 200,000 tracked objects. The delivery of 
the Space Fence will provide JFCC SPACE greater coverage for detection 
of near-earth objects as well as improved ability to detect unforeseen 
or unannounced space events such as breakups and maneuvers.
    Cubesat Tracking:
    Cubesats are a unique challenge, but one that the DOD has actively 
engaged with industry on for a number of years. Partnerships with 
academia, NASA, and other cubesat launchers has resulted in a large 
number of operators engaging with JSpOC very early in their 
constellation planning to ensure they take DOD tracking techniques into 
account when they deploy their objects. Ultimately, we would like to 
see more active tracking techniques added to these objects to improve 
responsiveness in identification.
    To minimize collisions:
    Collision mitigation is accomplished by JFCC SPACE through the 
JSpOC by comparing the predictive locations of orbiting objects to 
assess if there is a risk of close approach and, if so, what the 
predicted miss distance is at the time of closest approach. This 
process is referred to as Conjunction Assessment (CA). Through our 
relationships with over 600 civil, commercial, and military missions 
worldwide, we issue over 3,000 notifications daily to these partners 
advising of possible close approaches. Not all notifications are 
actionable, but for those messages in which the operator decides to 
maneuver, we screen their proposed maneuver plan to ensure they do not 
create new or increased risk to their satellite or others.
    The CA mission continues to evolve. The JSpOC screens all active 
payloads against all tracked objects multiple times a day. Current 
screening data not only includes our SSN data but also includes 
ephemeris and future maneuver plans from many operators. We are 
constantly innovating new techniques, with the collaboration of other 
military organizations, NASA, and commercial partners. With the 
implementation of the JSpOC Mission System (JMS) Service Pack 2 this 
year and new sensors like the Space Fence, JFCC SPACE's ability to 
detect and warn of potential collisions will be improved.
    Mr. Rogers. What is the plan for the Joint Interagency Combined 
Space Operations Center (JICSPOC) going forward, and how does this 
compare with the plan for the Joint Space Operations Center (JSPOC)?
    General Buck. Although there has not been a final decision on the 
long-term mission of the JICSpOC, we have already learned much from its 
first three experiments and are using the information to determine the 
future construct for unity of effort across the USG to preserve our 
Nation's access to space and to provide seamless space-based 
capabilities for our forces. We will continue to use the information 
coming out of the JICSpOC to plan for emerging and advanced space 
threats and will leverage it to provide vital information, capabilities 
and effects for national leadership, allies and partners, and the Joint 
Force. Like the JSpOC, JFCC SPACE's primary command and control 
operations center, the JICSpOC will be assigned to JFCC SPACE; the two 
centers will work in unison to ensure space-based capabilities are 
delivered to our forces and to protect and defend the space domain.
    Mr. Rogers. Cloud characterization and theater weather imagery are 
the top two most important certified requirements regarding space-based 
weather collection. What are the risks if these warfighter requirements 
are not met?
    General Buck. Accurate characterization of cloud tops is critical 
to missile detection, missile warning and intelligence collection and 
analysis. Insufficient space-based weather collection over theaters of 
operation will negatively affect our ability to accurately monitor and 
subsequently forecast thunderstorms, icing, turbulence, tropical 
cyclones and other environmental factors affecting force maneuver and 
mission execution.
    Specific effects include:
    <bullet>  Space-based and airborne intelligence, surveillance and 
reconnaissance (ISR), required for monitoring enemy force disposition/
employment and targeting, require accurate cloud characterization for 
planners to predict the best time and locations for electro-optical/
infrared (EO/IR) coverage.
    <bullet>  Overhead persistent infrared (OPIR) collections, critical 
for strategic and theater missile warning, require accurate cloud 
characterization and theater weather information for collection, 
monitoring and characterization.
    <bullet>  Successful force employment to include planning, 
maneuver, weapon selection, and execution timing rely on accurate 
weather forecasts enabled through persistent theater weather imagery.
    <bullet>  Time sensitive operations such as search & rescue and 
medical evacuation require timely and accurate weather forecasts.
    Mr. Rogers. What affect will disaggregation of nuclear and non-
nuclear missions have on an adversary's risk calculus regarding 
attacking U.S. space assets? Will it lead to less complicated and/or 
lower the threshold for attacking space systems supporting the United 
States' ability to project power with non-nuclear forces? If so, are 
you concerned that disaggregation could weaken deterrence and foster 
crisis instability?
    General Buck. Disaggregation of space-based missions complicates a 
potential adversary's risk calculus and provides a level of resilience 
to our space based capabilities. Disaggregation should be investigated 
from both mission and orbital regime perspectives. Using multiple 
orbital regimes for space based missions (low earth orbit, medium earth 
orbit, geosynchronous earth orbit and highly elliptical orbits) 
complicates an adversary's decision calculus. Focusing solely on 
mission disaggregation could enable an adversary to assume non-nuclear 
targeting remains below any threshold for escalating into multi-theater 
armed conflict. A balanced approach to disaggregation increases overall 
resilience, avoids any implication that some space capabilities can be 
targeted with fewer consequences, and, as such, offers a greater 
potential for deterrence and stability.
    Mr. Rogers. Do you support establishing so-called ``red lines'' 
through declaratory policy statements to refrain from deliberate 
interference with nuclear command, control, and communications or early 
warning space systems?
    General Buck. The United States is committed to reinforcing 
positive norms of behavior to ensure the continued peaceful use of 
space for all responsible nations. The establishment of ``red lines'' 
as posed in your question is a policy vice military decision. The 
political decision on declaratory policy will likely need to weigh the 
loss in flexibility with respect to an ever changing geopolitical 
environment against any potential deterrence value from such a 
declaration. That said, if such declarations are made, JFCC SPACE is 
prepared to execute any mission received should an adversary decide to 
act in abeyance of those declarations.
    Mr. Rogers. Do you believe that Russia or China will honor 
international norms to refrain from deliberate interference with 
nuclear command, control, and communications or early warning space 
systems in the event of crisis or conflict with the United States?
    General Buck. I believe that Russia and China will honor 
international norms (and in Russia's case, its specific obligations 
under the New START treaty) as long as they perceive it as in their 
national interests to do so. While neither seek nuclear conflict with 
the United States, it is prudent to consider that, if either regime 
feels threatened, neither is likely to remove options from 
consideration. That said, the degree of international cohesiveness 
against aggression in the space domain will be a part of both Russian 
and Chinese decision calculus. To convince them to continue to honor 
those norms, we need to employ a well-rounded strategy of deterrence to 
include strong partnerships with like-minded space faring nations.
    Mr. Rogers. What is the current state of the space acquisition 
workforce with regard to numbers of acquisition professionals and their 
acquisition management expertise? If there are shortcomings in the 
acquisition workforce, what is being done about them? What efforts are 
underway to enhance development of the space acquisition workforce?
    Mr. Calvelli. NRO has a robust complement of acquisition 
professionals, including personnel from the CIA's Directorate of 
Science & Technology (DS&T) Office of Space Reconnaissance (OSR), 
Active Duty Air Force, Navy, and Army personnel, and NRO's new DOD 
Cadre workforce. While the entirety of NRO's space acquisition 
workforce is not ``formally'' designated, this diverse set of 
professionals is focused on ensuring every NRO space acquisition is 
successfully delivered on time and on budget. With respect to training 
and expertise, personnel occupying acquisition positions are required 
to pursue appropriate certifications through the Defense Acquisition 
University (DAU) in accordance with DOD regulations and the Defense 
Acquisition Workforce Improvement Act (DAWIA). Personnel assigned to 
the NRO from other agencies are required to comply with their home 
agency certification and training requirements, in addition to taking 
courses offered by the NRO's Acquisition Center of Excellence (ACE). 
Additionally, CIA officers can also take available CIA-specific 
acquisition courses. In addition to other Intelligence Community 
detailees, the CIA does not specifically code their billets as 
``acquisition.'' However, the CIA's DS&T Office of Space Reconnaissance 
(OSR) was formally established in 2014 to provide CIA officers a career 
path focused on space and space-related acquisitions. The number of CIA 
personnel assigned to the NRO is classified and will be provided 
separately to your staff. At this time, I do not believe there are 
shortcomings in the NRO acquisition workforce. Those acquisition coded 
positions not currently occupied by appropriately certified personnel 
are monitored on a monthly basis to assess their status and track their 
certification progress. The NRO continues to receive tremendous support 
from its military service and intelligence community partners. In 
addition to Defense Acquisition University (DAU) training, the NRO has 
numerous other avenues available to personnel to broaden and deepen 
their acquisition skillset both formally and informally. These include 
the NRO Acquisition Center of Excellence (offering NRO-unique 
acquisition training); informal training/experiences; advanced 
education (University of Maryland and Virginia Tech on-site Masters 
programs); professional certifications (Naval Post Graduate School, 
etc.), and other programs within the DOD or the Intelligence Community 
(National Defense University, National Intelligence University, etc.). 
Additionally, Central Intelligence Agency (CIA) personnel seeking CIA 
Contracting Officer Technical Representative (COTR) certification may 
take CIA-specific courses, or substitute NRO ACE courses for CIA COTR 
Acquisition Training I (CAT-I) and COTR Acquisition Training II (CAT-
II).
    Mr. Rogers. Please explain how implementation of the Space 
Enterprise Vision will improve the affordability, resilience, and 
capability of the future national security space architecture.
    Mr. Calvelli. The Space Enterprise Vision (SEV) describes a shared 
vision between the National Reconnaissance Office and Air Force Space 
Command (AFSPC). It is a resiliency strategy that achieves robustness 
through a layered defense-in-depth integrated with architectural 
agility designed to promote threat denial and asymmetric cost 
imposition in combination with decision superiority. The vision 
developed jointly between the NRO and AFSPC is responsive to a broad 
spectrum of disruptive counter space threats in all contested regimes 
including space, ground, and cyber. While this vision does not call for 
a shared single architecture, it describes a coordinated approach 
across all space mission areas, coupling the delivery of space mission 
effects to policy makers, the warfighters, and the Intelligence 
Community with the ability to protect and defend space capabilities 
against emerging threats. Core elements include persistent situational 
awareness, protection of strategic-enabling capabilities, and agile 
operations within a balanced force structure optimized to preserve 
mission and enforce a deterrence posture against adversaries. The 
strategy builds resiliency through an enterprise approach that 
leverages a synergistic strength created by mutually supporting 
capabilities, effects, and tactics.
    Mr. Rogers. Is the Air Force Space Command and the National 
Reconnaissance Office taking different approaches to improve the 
resilience and assurance of the national security space architecture? 
If so, why?
    Mr. Calvelli. Although the orbital disposition and mission 
composition of the NRO and Air Force space architectures are different, 
they are complementary and the central tenets of achieving resiliency 
are largely the same. Both organizations are evaluating the appropriate 
mixture of resiliency insertion options to include hosted payloads, 
off-boarding, path diversity, and disaggregation to best accomplish the 
breadth of title 10 and title 50 missions in a contested environment. 
Varying approaches to achieving balance between resiliency and mission 
assurance at the platform and constellation level are being pursued by 
the NRO and Air Force Space Command depending on mission parameters. 
These systems exhibit varying degrees of interoperability within the 
national security space architecture to achieve the overall performance 
and resiliency goals prescribed for the SEV. In addition, both 
organizations benefit from distributed indications and warning systems 
working cooperatively to avoid surprise and to provide timely 
attribution of threats for effective mitigation and operate-through. 
Integrated decision support tools such as those demonstrated in the 
JICSpOC will combine data flows derived collectively from multiple 
sensor perspectives to improve threat prediction confidence, prioritize 
alerts, and orchestrate responses for space control at the leading edge 
of threat engagement.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. COOPER
    Mr. Cooper. How does DOD's approach to phasing out reliance on 
Russian engines best ensure rapid and reliable access to space? What 
would the impact be of restricting funding to just an engine? Would 
this be the optimal way forward to gain assured access to space in the 
near and long-terms?
    General Hyten. The optimal path to assured access to space is by 
initiating public private partnerships for the development of 
commercial launch systems that also meet the requirements to provide 
national security space (NSS) launch services. Investment in industry's 
launch services improves assured access to space for multiple reasons. 
First, the DOD has insight into the development of new or upgraded 
launch systems and can work directly with industry to manage the 
integration of NSS requirements. Second, investment increases the 
likelihood of meeting stressing NSS launch requirements using launch 
systems that are also commercially viable. Commercially viable launch 
service providers share the fixed costs of commercial launch services 
across commercial and Government customers, reducing the overall cost 
to the Government even if NSS missions cost more to meet the more 
strenuous launch requirements. Engine development alone does not 
guarantee a launch solution unless a launch service provider uses the 
engine and could result in billions in tax-payer funds wasted if the 
Government developed engine is not used by a launch provider. In 
addition, implementing a ``drop in replacement'' without significantly 
redesigning the launch vehicle drives inefficiencies that may make the 
overall launch vehicle more expensive because it may require more fuel 
or strap-on solids to take the satellites to the required orbits. Thus, 
the best way near- and long-term to obtain the required performance at 
a reasonable cost is to design the launch vehicle and engine together. 
If authorized in FY17, the Air Force will start investing in launch 
services, which will result in the development of launch systems 
including completing the rocket propulsion systems, and any required 
launch system infrastructure. Shared investment with launch providers 
and competition for launch services is a feasible and cost-effective 
approach. This type of approach was successfully demonstrated on: 1) 
Original EELV program, 2) NASA Commercial Orbital Transportation 
Services (COTS), and 3) NASA Commercial Crew.
    Mr. Cooper. Commercial industry, including SpaceX, Orbital-ATK, ULA 
and Blue Origin have are planning to make or use a methane engine in 
their launch vehicle. If this type of engine is not deemed too risky 
for a large part of the industry (assuming it is tested and certified), 
should it be considered too risky for government?
    General Hyten. The Department of Defense strategy is to invest in a 
commercial launch service provider solution. Multiple providers are 
considering methane engines. If an engine is acceptable in terms of 
risk for the industry and it meets all our National Security Space 
(NSS) requirements for launch vehicle certification, it would be 
appropriate for NSS launches.
    In addition, the DOD has initiated engine studies as part of the 
effort to reduce the biggest risks to engine development, including the 
use of methane as a fuel. These results are already being shared with 
industry to increase the chances of engine development success. While 
there is much interest in an oxygen rich staged combustion (ORSC) 
methane engine, the difficulty in developing one cannot be dependably 
characterized yet. With little American experience with methane and 
kerosene ORSC engines, there are many opinions, and no solid evidence 
regarding the pros or cons of ORSC methane engines. For this reason, we 
are pursuing both methane and kerosene engine technologies until they 
are demonstrated.
    Mr. Cooper. How much funding is there in FY17 to enhance resilience 
in space?
    General Hyten. The current U.S. space enterprise is not resilient 
enough to survive all threats that extend into space. The entire FY17 
Presidents Budget for the Air Force Space portfolio directly or 
indirectly supports resilient capabilities, agile defense, 
reconstitution, and robust Command, Control and Communications (C3) to 
provide Space Superiority. All systems we are requesting in the budget 
are being designed to improve the resiliency of the space enterprise. 
Examples of these efforts include investments in a more standardized, 
agile, and cyber-secure enterprise ground architecture; improved Space 
Situational Awareness capabilities; battle management and command and 
control experimentation; and a range of development initiatives focused 
on resilience of the Air Force Space portfolio of capabilities.
    Mr. Cooper. Absent the launch of DMSP-20, beyond 2020 (estimated 
lifespan of DMSP-19), how does the Air Force plan to provide the 
capabilities DMSP-20 would have provided? With DMSP-19 failing 
recently, would there now be renewed utility to launch DMSP-20?
    General Hyten. Consistent with Joint Requirements Council (JROC) 
validation of the Space-Based Environmental Monitoring Analysis of 
Alternatives (JROCM 092-14, dated 3 September 2014) the Department of 
Defense (DOD) has been working to address microwave imaging and space 
weather satellite anomaly assessment capabilities with a DOD materiel 
solution acquisition, the Weather System Follow-on. The JROC directed 
leveraging civil/international partner capabilities, as well as 
possible non-materiel solution options, for the remaining space weather 
and electro optical/infrared sensing needs (such as cloud 
characterization and theater weather imagery). Per Congressional 
direction in the FY15 & FY16 National Defense Authorization Acts 
(NDAA), the FY16 Consolidated Appropriations Act, and in coordination 
with stakeholders, the DMSP Program Executive Officer and Milestone 
Decision Authority (Lt Gen Greaves) signed a Termination Acquisition 
Decision Memorandum on 30 December 2015. The Termination ADM initiates 
a set of activities and specific tasks defined in the Federal 
Acquisition Regulation. Specific timelines are specified in the FAR for 
completion of those efforts and an integrated program schedule has been 
developed to manage those efforts, resulting in space vehicle 
disposition by 20 December, 2016. While the implementation of 
termination is underway, Lt Gen Greaves directed the program office to 
take no irreversible action for the moment to allow the AF, DOD, and 
Congress an opportunity to evaluate the utility of launching DMSP-20. 
Bottom line is that the Air Force is executing the termination plan per 
the FAR and has until 1 June 2016 to make a decision on DMSP 20 without 
affecting the 20 December 2016 mandate.
    Mr. Cooper. Are we willing and sufficiently prepared to be able to 
rely on allied space launch capability in an emergency case where U.S. 
launch providers would not be available?
    General Hyten. The National Space Transportation Policy states: 
``United States Government payloads shall be launched on vehicles 
manufactured in the United States unless an exemption is coordinated by 
the Assistant to the President and National Security Advisor and the 
Assistant to the President for Science and Technology and Director of 
the Office of Science and Technology Policy through an interagency 
process.'' In addition to this, 51 USC 50131 states, ``. . . the 
Federal Government shall acquire space transportation services from 
United States commercial providers whenever such services are required 
in the course of its activities. To the maximum extent practicable, the 
Federal Government shall plan missions to accommodate the space 
transportation services capabilities of United States commercial 
providers.''
    It may be necessary in an emergency to use allied launch services, 
but each of the NSS satellite program offices and customers (AFSPC and 
NRO) have specific detailed technical interface and security 
requirements that would have to be met and accommodated by the allied 
launch service, which would be difficult to achieve on short notice. 
The Air Force and The Aerospace Corporation conducted a very general 
study in late 2013 which found nothing to preclude an allied launch 
provider, Arianespace, from potentially launching NSS payloads. The Air 
Force plans to conduct a more in-depth study/assessment during 2016 in 
collaboration with Arianespace. This study will focus on collecting 
data and a detailed assessment of Arianespace launch vehicles as a 
backup capability for NSS missions. When the study is complete, we will 
have a much better idea of what it will take (time, resources, and 
technical resources) to launch NSS payloads using allied launch 
services. If it is determined that launch of a mission payload on a 
foreign launch service is in the national security interests of the 
U.S. due to the unavailability of a domestic launch capability, the Air 
Force would comply with the National Space Transportation Policy 
exemption guidelines.
    Mr. Cooper. Last year during the Strategic Forces Subcommittee 
launch hearing, both SpaceX and ULA testified that they did not require 
any government funds to develop a new engine. What are the incentives 
for private industry to develop a new engine and what is the value of 
planned expenditures by DOD that these companies would compete for in 
the national security market once they have developed an engine? What 
is the right balance in a public/private partnership in terms of 
funding a new engine?
    Mr. Loverro. The Department's Evolved Expendable Launch Vehicle 
(EELV) Rocket Propulsion System (RPS) and Launch Services Investment 
(LSI) programs represent an integrated approach in which the Department 
partners with industry to develop not only domestically designed and 
manufactured liquid- and solid-fuel based propulsion systems, but more 
importantly, new and improved launch services capabilities. The 
Department is funding these activities in an effort to ensure that 
current and future launch service providers focus on developing systems 
that meet all of the Department's requirements, not just those driven 
by the commercial market place. The Department's requirements are 
typically much more demanding than those of commercial customers.
    Because of the Department's innovative use of Other Transaction 
Authority (OTA) on the RPS program, industry is required, by statute, 
to provide at least one-third of the funding for the project. The 
Department is encouraging our OTA industry partners to contribute at a 
level higher than one-third. Even at a one-third contribution, however, 
the Department is receiving an excellent return on its RPS investments. 
The ultimate incentives for those investments is clearly access to the 
future National Security launch market, which CAPE estimated at $80B in 
2013.
    Mr. Cooper. How can we better take advantage of emerging commercial 
capabilities, whether it be imagery or space situational awareness?
    Mr. Loverro. As I testified in my hearing and in response to 
HASCSF-03-12, leveraging U.S. commercial entrepreneurial developments 
is a center piece of our overall space strategy. From a policy 
perspective, we have focused on efforts to eliminate unnecessary and 
outdated barriers to commercial innovation while still assuring 
national security protections. From an architectural basis, we are 
carefully studying whether we can disaggregate previously aggregated 
strategic and tactical space systems to allow greater utilization of 
commercial capability to meet those tactical needs. Most challenging 
are the acquisition and business impediments to utilizing commercial 
space capabilities, which we are trying to address with innovative 
business arrangements such as the commercial SatCom Pathfinder 
activities and more intensive use of other transaction authorities.
    In the specific area of remote sensing and commercial SSA, we have 
two main efforts. For remote sensing, NGA has built a strategy for 
commercial utilization which they are rapidly pursuing. On the SSA 
side, Air Force Space Command and STRATCOM have embraced the Commercial 
Space Operations Center (ComSpoc from AGI) as a foundational element 
within the JICSPoC experiment to see how it might address current 
shortfalls.
    We welcome and embrace these emerging innovations; however, rather 
than focusing on outdated policy barriers, the Department must improve 
its ability to exploit innovative approaches while maintaining national 
security.
    Mr. Cooper. How does DOD's approach to phasing out reliance on 
Russian engines best ensure rapid and reliable access to space? What 
would the impact be of restricting funding to just an engine? Would 
this be the optimal way forward to gain assured access to space in the 
near and long-terms?
    Mr. Weatherington. The Department continues to be dedicated to 
ending use of the Russian manufactured RD-180 engine as soon as 
reasonably possible, but still believes that access to the RD-180 while 
transitioning to new and improved launch service capabilities is the 
optimal way forward to meet statutory and Department policy 
requirements for assured access to space in both the near and long 
term. The Department also continues to focus on the development of new 
and improved launch service capabilities as this approach allows launch 
service providers to perform the design and optimization trades 
necessary to offer commercially viable launch services, using domestic 
propulsion systems, capable of meeting the Department's space launch 
requirements. Any new engine still has to be incorporated into a launch 
vehicle. The Department does not want to be in a position where 
significant resources have been expended on an engine and no commercial 
provider has built the necessary vehicle to use that engine. 
Restricting funding to engine development only would likely drive the 
development of an engine designed for a specific rocket, and at least 
initially, provide an advantage to a single launch service provider.
    Mr. Cooper. Last year during the Strategic Forces Subcommittee 
launch hearing, both SpaceX and ULA testified that they did not require 
any government funds to develop a new engine. What are the incentives 
for private industry to develop a new engine and what is the value of 
planned expenditures by DOD that these companies would compete for in 
the national security market once they have developed an engine? What 
is the right balance in a public/private partnership in terms of 
funding a new engine?
    Mr. Weatherington. The Department's long-term goal is to field new 
and improved launch service capabilities that will result in two or 
more commercially viable launch service providers utilizing 
domestically manufactured propulsion systems, that can support National 
Security Space missions to all 8 Evolved Expendable Launch Vehicle 
(EELV) reference orbits.
    The Department's EELV Rocket Propulsion System (RPS) and Launch 
Services Investment programs are designed to incentivize industry to 
develop not only domestically designed and manufactured liquid and 
solid fuel based propulsion systems, but more importantly, new and 
improved launch services capabilities. The Department is funding these 
activities in an effort to ensure current and future launch service 
providers focus on developing systems that meet all of the Department's 
requirements, that being able to place missions to all 8 EELV reference 
orbits, and not just those driven by the commercial market place. The 
Department's requirements are typically much more demanding than those 
of commercial customers.
    The Department is utilizing innovative use of Other Transaction 
Authority (OTA) agreements on the RPS program. The OTA agreements 
awarded by the Air Force require industry performers, by statute, to 
provide at least one third of the funding for the project. The 
Department is encouraging our OTA industry partners to contribute at a 
higher percentage. Even at a one third contribution, the Department is 
receiving an excellent return on its RPS investments. Additionally, a 
launch service provider who develops a system that meets the 
Department's requirements will have the opportunity to bid on up to 23 
Air Force missions valued up to $8B over the FYDP.
    Mr. Cooper. Commercial industry, including SpaceX, Orbital-ATK, ULA 
and Blue Origin have are planning to make or use a methane engine in 
their launch vehicle. If this type of engine is not deemed too risky 
for a large part of the industry (assuming it is tested and certified), 
should it be considered too risky for government?
    Mr. Weatherington. The Department does not deem a methane based 
engine as too risky for government use based on current knowledge. To 
date, there has not been a methane based engine developed, tested, and 
certified of the size necessary to power to an Evolved Expendable 
Launch Vehicle (EELV) class launch vehicle. The Blue Origin BE-4 
engine, currently under development and planned for possible use in the 
ULA next-generation Vulcan launch vehicle, is a methane based engine 
designed to use an oxygen-rich staged combustion (ORSC) engine cycle, 
similar to that used by the RD-180. While there has been international 
manufacturing of ORSC engines for many years, U.S industry has never 
designed, manufactured, and fielded an ORSC engine, either methane or 
kerosene based, capable of powering an EELV class launch vehicle. In 
order to reduce program risk and build U.S. manufacturing expertise in 
the ORSC area, the Department recently awarded four Other Transaction 
Authority agreements to fund multiple liquid and solid propulsion 
system development approaches as part of the EELV Rocket Propulsion 
System program.
    Mr. Cooper. Has the advent of new entrants in national security 
space launch benefited national security and the taxpayers? On what 
basis do you make this assessment?
    Mr. Weatherington. The emergence of new entrants provides the 
Department with an additional path to space, for some of our missions, 
which enables us to preserve assured access to space and benefits 
national security. The Department recently announced award of the 
GPSIII-2 launch service; this award achieves a balance between mission 
success, meeting operational needs, lowering launch costs, and 
reintroducing competition for National Security Space missions. The Air 
Force expects to compete three more launch services in FY 2016. The 
Department will be better able to quantify the cost reduction benefit 
to the taxpayer after these contracts have been awarded. While the cost 
reductions associated with competition are extremely important, 
ensuring that all certified EELV providers and potential EELV new 
entrants meet the Department's rigorous mission assurance standards and 
are able to reliably fly to all eight EELV mission orbits remains our 
top priority.
    Mr. Cooper. The request includes $30M for pathfinder activities to 
improve the acquisition of commercial satellite communications. There 
is support to bring additional commercial capabilities to DOD, better 
value to taxpayers and new approaches to acquiring COMSATCOM. However, 
there are questions about the extent to which the Air Force is 
leveraging the latest technology to its full capability, and whether it 
is heeding the direction in the FY16 NDAA which required a pilot 
program to demonstrate orders-of-magnitude improvements in capability 
and capacity. Why are investments in this type of pathfinder not 
planned until the 2020s instead of in the next few years?
    Mr. Weatherington. The Department's wideband satellite 
communication (SATCOM) pathfinder activities have already started and 
include five Air Force and five Defense Information Systems Agency 
(DISA) pathfinders. The first four DISA and the first Air Force 
pathfinder activities have either been completed or are providing 
useful data. The last DISA and the second Air Force pathfinder efforts 
should be on contract by the end of FY 2016. The FY 2017 President's 
Budget requested funds for the Air Force's last three pathfinder 
efforts, which should be awarded in FY 2017 through FY 2019. These 
pathfinder activities are part of the pilot program for providing a 
cost-effective and strategic method to acquire commercial SATCOM 
services directed by the FY 2016 NDAA.
    Mr. Cooper. Are we willing and sufficiently prepared to be able to 
rely on allied space launch capability in an emergency case where U.S. 
launch providers would not be available?
    Mr. Weatherington. The Department is required by statute and policy 
to fly National Security Space (NSS) payloads on U.S. manufactured 
launch vehicles. While there has been some preliminary investigation 
into the use of the Ariane V vehicle for use by NSS payloads, a 
significant amount of follow-up work would be required before any 
definitive conclusions could be made. In the case of a national 
emergency, this analysis could become a priority, but it is difficult 
to imagine a situation where the entire U.S space launch capability was 
grounded for a period long enough to allow the reintegration of an NSS 
payload to a new launch vehicle. The first time integration of a 
satellite onto a launch vehicle is a process that typically takes 2 to 
3 years.
    Finally, it should be noted that Ariane V has not demonstrated the 
capability to fly to all eight of the NSS required orbits.
    The FY 2016 NDAA Sec. 1607, Joint Explanatory Statement (JES) 
included a congressional briefing requirement for an executable backup 
plan for assured access to space. The JES directs the Department to 
evaluate options for an executable backup plan for assured access to 
space that maintains competition as feasible. The Air Force is in the 
initial rounds of coordinating the draft briefing and plans to deliver 
it to the Congressional Defense Committees by the end of July 2016.
    Mr. Cooper. How can we better take advantage of emerging commercial 
capabilities, whether it be imagery or space situational awareness?
    Mr. Cardillo. [The information referred to is classified and 
retained in the committee files.]
    Mr. Cooper. How have you leveraged commercial capabilities and open 
source analysis to augment traditional collection? Do you need 
additional authorities for this?
    Mr. Cardillo. [The information referred to is classified and 
retained in the committee files.]
    Mr. Cooper. How much funding is there in FY17 to enhance resilience 
in space?
    Mr. Calvelli. A classified, detailed breakdown of NRO's funding for 
resiliency will be provided separately via secure means.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. LAMBORN
    Mr. Lamborn. Last Fall, the Air Force released its ``Future 
Operating Concept'', a strategic vision for where the Air Force wants 
to go in the next 20 years. It contains several thought-provoking 
vignettes. One vignette, titled ``Space Control Challenged'' envisions 
a Multi-Domain Operations Center which combines and integrates air, 
space, and cyberspace information and operations. At the MDOC, an Air 
Force Captain receives warning of an imminent ground-based laser attack 
on one of our commercial imagery satellites, and then uses big data 
fusion, analytics and simulation to select an offense cyber response. 
As the battle continues, he is able to have real-time situational 
awareness and command and control to fight the war in space. In another 
vignette, called ``Satellites On-Demand'', an F-35 pilot responds to an 
adversary's offensive degradation of U.S. space capabilities by 
launching an on-demand rapid reconstitution satellite cluster. Once the 
F-35 releases the satellite cluster at high altitude, a modular 
satellite booster propels the cluster into orbit, where it deploys into 
a dispersed network formation of micro-sat's complete with 
electromagnetic-spectrum measures, which complicates adversary space-
control actions. The cluster is thus able to focus its sensors on an 
area of interest and supports a strike package inbound to attack 
targets in enemy territory. My question is, what's being done to make 
this vision a reality across the national security enterprise? How can 
we work with you to help you achieve your vision? Also, given that this 
represents where the Air Force would like to be in 2035, do we really 
have to wait 20 years to see these concepts become a reality? What's 
stopping us from doing it faster?
    General Hyten. JICSpOC experimentation, the Space Mission Force 
(SMF), and development of a threat-informed Space Enterprise Vision 
(SEV) are the foundational elements to implement the Air Force 
strategic vision described in the ``Future Operating Concept.'' These 
initiatives will enable our space mission forces to more effectively 
respond to counterspace threats, enhance space crew readiness with 
advanced training and tools, integrate space into agile, multi-domain 
operations, and increase the resilience of the space enterprise.
    Mr. Lamborn. How can we help you achieve your vision?
    General Hyten. Consistent funding over time; more specifically, 
your continued support toward experimentation activities, embodied in 
the current JICSpOC effort, is extremely important. The JICSpOC will 
not only inform us how to better operate with current capabilities, but 
will also identify any materiel gaps requiring additional acquisition 
and funding requirements.
    Current gap assessments identify the need for a fully funded, 
joint, and combined Space Battle Management Command, Control, and 
Communications (BMC3) system to assure continued access to space for 
the U.S. and its partners and allies. Another key initiative is our 
shift toward a Space Mission Force as we advance the skillsets of our 
space crews to operate in a contested environment. Finally, 
congressional support toward the Enterprise Ground Services initiative 
is necessary as we move to a common interface environment for our 
Airmen so they may focus on improved mission and warfighter effects 
vice routine tasks.
    While the Bipartisan Budget Act provides much needed stability and 
predictability, we would reiterate the Secretary of the Air Force's 
call for a permanent lift to sequestration. Ultimately, continued 
support for the FY17 Air Force budget request is an important step 
toward arresting the erosion of our competitive advantage.
    Mr. Lamborn. Also, given that this represents where the Air Force 
would like to be in 2035, do we really have to wait 20 years to see 
these concepts become a reality?
    General Hyten. Given today's space and cyberspace threats and 
projected future threats, we cannot afford to wait 20 years. Some 
nations are aggressively expanding their pursuit of counterspace 
technologies now. They are adapting quickly to hold U.S. space and 
cyberspace capabilities at risk. It is imperative that we respond more 
rapidly to changing threats in space.
    Mr. Lamborn. What's stopping us from doing it faster?''
    General Hyten. The challenge is significant, and the largest 
barrier to faster progress is a lack of mature technology. We are 
actively pursuing technologies in support of the Air Force future 
concept, such as development of a shared common operating picture that 
will allow automated information sharing and integration across 
multiple domains and security levels. Development of this technology is 
a priority. Further, we are engaged in interagency and international 
forums, exercises, and experiments to explore synergistic efforts/
technologies that may address shared and pervasive needs in the space 
arena. This investment of time also allows examination of potential 
solution sets, current operational limitations, and capture of mature 
requirements needed to develop the requisite capabilities and highly-
trained forces needed to fulfill the vision and accelerate concept 
implementation. Inculcating greater threat awareness into a space force 
that has traditionally operated platforms in the relatively safe, 
benign environment of space will also take time, but we are tackling 
that with the Space Mission Force initiative.
    Mr. Lamborn. Can you please provide some more detail about your 
Space Training Transformation Initiative? During the four-month periods 
when space operators are ``off-crew'', where, and how, does advanced 
training take place?
    General Hyten. The Space Training Transformation (STT) Initiative 
implements guidance from CORONA Top 2012 and the Space Professional 
Functional Authority to develop and implement a more robust Air 
Education and Training Command (AETC) Officer and Enlisted 
Undergraduate Space Training (UST) expanding the course from 33 to 76 
training days. STT also transitions the responsibility for space weapon 
system specific training from AETC to Air Force Space Command (AFSPC). 
Through the realignment of resources and organizational 
responsibilities, STT functions will allow for rapid unit training 
content updates and enable the most cost-effective use of Air Force 
resources while increasing technical understanding of the space domain.
    The second part of the question is part of our separate, but 
related, Space Mission Force (SMF)/Ready Spacecrew Program (RSP) 
Initiative. During the four-month periods when space operators are 
``off-crew'', they will receive advanced training at their local units/
wings. Advanced training is the set of formal training requirements, 
beyond weapon system qualification and continuation training, to 
advance the skills required to ensure mission accomplishment in a 
contested, degraded and operationally-limited (CDO) environment. 
Advanced training events will include classroom, simulator and exercise 
sessions focusing on CDO challenges, defensive tactics, techniques and 
procedures (TTPs), system and operations integration, and mission 
planning and debriefing for the current and future threat environment. 
Advanced training events will push operators to their limits and drive 
them to improve and discover new and better ways to conduct operations.
    Mr. Lamborn. Last Fall, the Air Force released its ``Future 
Operating Concept'', a strategic vision for where the Air Force wants 
to go in the next 20 years. It contains several thought-provoking 
vignettes. One vignette, titled ``Space Control Challenged'' envisions 
a Multi-Domain Operations Center which combines and integrates air, 
space, and cyberspace information and operations. At the MDOC, an Air 
Force Captain receives warning of an imminent ground-based laser attack 
on one of our commercial imagery satellites, and then uses big data 
fusion, analytics and simulation to select an offense cyber response. 
As the battle continues, he is able to have real-time situational 
awareness and command and control to fight the war in space. In another 
vignette, called ``Satellites On-Demand'', an F-35 pilot responds to an 
adversary's offensive degradation of U.S. space capabilities by 
launching an on-demand rapid reconstitution satellite cluster. Once the 
F-35 releases the satellite cluster at high altitude, a modular 
satellite booster propels the cluster into orbit, where it deploys into 
a dispersed network formation of micro-sat's complete with 
electromagnetic-spectrum measures, which complicates adversary space-
control actions. The cluster is thus able to focus its sensors on an 
area of interest and supports a strike package inbound to attack 
targets in enemy territory. My question is, what's being done to make 
this vision a reality across the national security enterprise? How can 
we work with you to help you achieve your vision? Also, given that this 
represents where the Air Force would like to be in 2035, do we really 
have to wait 20 years to see these concepts become a reality? What's 
stopping us from doing it faster?
    Mr. Loverro. In 2015, the Air Force published the Air Force 
Strategy, ``Call to the Future, the Air Force Future Operating 
Concept,'' which provides an explanation of a notional end-state; and 
the Strategic Master Plan (SMP), which includes a 20-year roadmap to 
achieve the Air Force Future Operating Concept (AFFOC) end-state. The 
SMP has five vectors (21st Century Deterrence, Global Integrated 
Intelligence, Surveillance, and Reconnaissance (ISR), Multi-Domain 
Approach, Full-Spectrum Capable, High-End Focused Force, and Game-
Changing Technologies); these vectors represent the path to get to the 
AFFOC end-state. Implementing the strategy will be a long process that 
crosses all of the core missions and every organization and that uses 
all major corporate processes including resourcing, manpower, 
acquisition, training and education, and technology development. The 
Under Secretary of the Air Force and the Vice Chief of Staff of the Air 
Force have appointed 3-star ``Champions'' for each of the vectors to 
provide the strategic leadership and synchronize the tactical tasks 
associated with implementing the SMP Goals and associated Objectives. 
They are using the Air Force Council as the forum to institutionalize 
senior leader dialogue and the strategic focus that will be required to 
implement the Air Force strategy.
    From an OSD perspective, we view these vectors as important glide-
paths to future warfighting concepts, but we all recognize that bold 
vision such as these will mature and evolve over time and that it may 
not be technologically possible to achieve those goals sooner than the 
Air Force estimates.
    Mr. Lamborn. In establishing the Principal DOD Advisor for Space 
position, DEPSECDEF noted that the Executive Agent for Space construct 
did not work as planned because it was essentially a coordinating body 
with little authority. What reason is there to believe that the PDSA 
will not suffer the same fate, especially when it does not have any 
budget authority? What, if any, are the current challenges with the 
PDSA structure?
    Mr. Loverro. The Deputy Secretary has designated the Secretary of 
the Air Force as the Principal DOD Space Advisor (PDSA) and has 
expanded her authorities and responsibilities to provide independent 
assessments and recommendations to the Secretary of Defense and the 
Deputies Management Action Group regarding space programs, budgets, and 
activities.
    This is an important step to improve governance of DOD space 
programs, and the Department believes that the PDSA has sufficient 
authority to accomplish the task. The Deputy Secretary has been clear 
that we will evaluate the effectiveness of the PDSA over time and, if 
necessary, adjust authorities to fully meet the intent of the PDSA 
structure.
    Mr. Lamborn. Last Fall, the Air Force released its ``Future 
Operating Concept'', a strategic vision for where the Air Force wants 
to go in the next 20 years. It contains several thought-provoking 
vignettes. One vignette, titled ``Space Control Challenged'' envisions 
a Multi-Domain Operations Center which combines and integrates air, 
space, and cyberspace information and operations. At the MDOC, an Air 
Force Captain receives warning of an imminent ground-based laser attack 
on one of our commercial imagery satellites, and then uses big data 
fusion, analytics and simulation to select an offense cyber response. 
As the battle continues, he is able to have real-time situational 
awareness and command and control to fight the war in space. In another 
vignette, called ``Satellites On-Demand'', an F-35 pilot responds to an 
adversary's offensive degradation of U.S. space capabilities by 
launching an on-demand rapid reconstitution satellite cluster. Once the 
F-35 releases the satellite cluster at high altitude, a modular 
satellite booster propels the cluster into orbit, where it deploys into 
a dispersed network formation of micro-sat's complete with 
electromagnetic-spectrum measures, which complicates adversary space-
control actions. The cluster is thus able to focus its sensors on an 
area of interest and supports a strike package inbound to attack 
targets in enemy territory. My question is, what's being done to make 
this vision a reality across the national security enterprise? How can 
we work with you to help you achieve your vision? Also, given that this 
represents where the Air Force would like to be in 2035, do we really 
have to wait 20 years to see these concepts become a reality? What's 
stopping us from doing it faster?
    Mr. Weatherington. The Department's efforts to transition to an 
operationally agile, fully integrated, multi-domain force are being 
supported by on-going technology development, experimentation, 
wargaming, and use of open architecture and network centric engineering 
principles. We are developing network enabled command and control 
systems (i.e., Air Operations Center, Joint Space Operations Center 
Mission System) that incorporate open architecture principles to enable 
interoperability and operational flexibility. In parallel, the 
Department has implemented the Joint Interagency Combined Space 
Operations Center to facilitate joint experimentation to ensure we can 
effectively access, fuse, and analyze all sources of information to 
enable effective decision making in peacetime and in crisis. This 
effort will refine optimum command and control relationships, concepts 
of operations, and materiel solution requirements to achieve 
operational agility. Achieving this vision will take time to mature 
these concepts and supporting technology.
    This transition will also require a balanced resourcing strategy to 
ensure the Department can continue to meet current requirements while 
implementing the force structure of the future. The Department is 
assessing options to improve resiliency in the next generation of our 
current systems (i.e., Space Based Infrared System and Military 
Satellite Communications) while conducting technology development for 
next generation capabilities. To guide efforts to improve resilience of 
the national security space enterprise, Air Force Space Command 
recently released its ``Space Enterprise Vision''. This vision 
establishes a new ``resiliency capacity'' concept that takes into 
account how well a capability can address a current threat and how 
quickly they can adapt to counter future threats. This resiliency 
capacity metric will replace the traditional ``functional 
availability'' metric that has been used to characterize and evaluate 
space capabilities. Implementing the Air Force's Future Operating 
Concept will also require continued investment in technology 
development and advances to address future threats. An example of this 
technology development is the Defense Advanced Research Projects 
Agency's continuing effort to develop a significantly less expensive 
approach for routinely and rapidly launching small satellites into low 
Earth orbit.
    Mr. Lamborn. Last Fall, the Air Force released its ``Future 
Operating Concept'', a strategic vision for where the Air Force wants 
to go in the next 20 years. It contains several thought-provoking 
vignettes. One vignette, titled ``Space Control Challenged'' envisions 
a Multi-Domain Operations Center which combines and integrates air, 
space, and cyberspace information and operations. At the MDOC, an Air 
Force Captain receives warning of an imminent ground-based laser attack 
on one of our commercial imagery satellites, and then uses big data 
fusion, analytics and simulation to select an offense cyber response. 
As the battle continues, he is able to have real-time situational 
awareness and command and control to fight the war in space. In another 
vignette, called ``Satellites On-Demand'', an F-35 pilot responds to an 
adversary's offensive degradation of U.S. space capabilities by 
launching an on-demand rapid reconstitution satellite cluster. Once the 
F-35 releases the satellite cluster at high altitude, a modular 
satellite booster propels the cluster into orbit, where it deploys into 
a dispersed network formation of micro-sat's complete with 
electromagnetic-spectrum measures, which complicates adversary space-
control actions. The cluster is thus able to focus its sensors on an 
area of interest and supports a strike package inbound to attack 
targets in enemy territory. My question is, what's being done to make 
this vision a reality across the national security enterprise? How can 
we work with you to help you achieve your vision? Also, given that this 
represents where the Air Force would like to be in 2035, do we really 
have to wait 20 years to see these concepts become a reality? What's 
stopping us from doing it faster?
    What's being done to make these vignettes reality?
    General Buck. The synergistic Army, Navy, Marine, and Air Force 
space team at the Joint Functional Component Command for Space and its 
Joint Space Operations Center (JSpOC) forms the basis for future 
warfighting enhancements along the lines of a Multi-Domain Operations 
Center (MDOC). By definition, a true MDOC must not only integrate the 
Air, Space and Cyber domains within the Air Force but integrate the 
Land and Maritime domains as well.
    A current and ongoing endeavor to better integrate the Joint and 
Interagency space enterprise is the Joint Interagency Combined Space 
Operations Center (JICSpOC) experimentation to determine the necessary 
constructs and processes for unity of effort across the USG. In 
addition to Joint and Interagency lines of effort, the US Air Force is 
implementing the Space Mission Force (SMF) and developing a threat-
informed Space Enterprise Vision that will increase the resilience 
capacity of the space enterprise and prepare our space mission forces 
to effectively respond to space threats. In addition, the SMF and Space 
Enterprise Vision (SEV) are the foundational elements for developing 
and implementing the AF strategic vision described in the ``Future 
Operating Concept,'' to including building a more resilient space 
enterprise and providing advanced tools and training to increase space 
crew readiness in order to fully integrate space operations into agile, 
multi-domain operations.
    Mr. Lamborn. How can we help you achieve your vision?
    General Buck. Predictable funding for capability improvements and 
increased resilience helps enable the Joint space enterprise focus on 
refining and developing new tactics, techniques, and procedures. 
Experimentation efforts, like the current JICSpOC activities, are 
extremely important in identifying not only how to better operate with 
current capabilities but also to identify any material gaps requiring 
acquisition and funding. Current gap assessments identify the need for 
a fully-funded Space Battle Management Command and Control (BMC2) 
system. We also face a shortfall in Indications and Warning for the 
space domain in addition to a shortage of space trained and focused 
intelligence personnel.
    As Commander, JFCC SPACE, I am relying on two significant efforts 
from Air Force Space Command. First, the SMF focuses operations 
personnel on providing space effects in contested, degraded and 
operationally limited (CDO) environments. Second, the Enterprise Ground 
Services (EGS) initiative provides the common environment from which we 
can access space and ground asset data gathered at the tactical level 
of space and provide insight to the operational level of space to 
determine if we are in a CDO environment and implement actions to 
mitigate effects. The SMF and EGS will work together to give us insight 
into the space environment which we simply don't have today. Finally, 
we're creating a culture of experimentation and change in satellite 
operations and space warfare to get ahead of the adversaries. We're 
doing this on the operations side through the Joint Space Operations 
Center (JSpOC) and support to the JICSpOC experimentation.
    Mr. Lamborn. Also, given that this represents where the Air Force 
would like to be in 2035, do we really have to wait 20 years to see 
these concepts become a reality?
    General Buck. If we are to maintain our competitive and operational 
advantages in, through and from space, it is imperative that we respond 
and field systems on faster and more agile timelines.
    Mr. Lamborn. What's stopping us from doing it faster?''
    General Buck. Rapidly evolving threats and technologies coupled 
with a dynamic environment are outpacing our deliberate acquisition 
processes. We need the ability to observe, orient, decide, and act 
faster than our adversary through resilient and responsive future space 
capabilities and tactics. Leveraging near-term experiments in space 
along with enterprise ground systems will ensure rapid development and 
maturation of much needed requirements. Establishing resilient 
Enterprise Ground Systems and developing and fielding robust BMC2 
capabilities to fight on operationally-relevant timelines are critical. 
In this endeavor, we should explore rapid prototyping, automation, 
machine-to-machine interfaces and artificial intelligence.
    Mr. Lamborn. Last Fall, the Air Force released its ``Future 
Operating Concept'', a strategic vision for where the Air Force wants 
to go in the next 20 years. It contains several thought-provoking 
vignettes. One vignette, titled ``Space Control Challenged'' envisions 
a Multi-Domain Operations Center which combines and integrates air, 
space, and cyberspace information and operations. At the MDOC, an Air 
Force Captain receives warning of an imminent ground-based laser attack 
on one of our commercial imagery satellites, and then uses big data 
fusion, analytics and simulation to select an offense cyber response. 
As the battle continues, he is able to have real-time situational 
awareness and command and control to fight the war in space. In another 
vignette, called ``Satellites On-Demand'', an F-35 pilot responds to an 
adversary's offensive degradation of U.S. space capabilities by 
launching an on-demand rapid reconstitution satellite cluster. Once the 
F-35 releases the satellite cluster at high altitude, a modular 
satellite booster propels the cluster into orbit, where it deploys into 
a dispersed network formation of micro-sat's complete with 
electromagnetic-spectrum measures, which complicates adversary space-
control actions. The cluster is thus able to focus its sensors on an 
area of interest and supports a strike package inbound to attack 
targets in enemy territory. My question is, what's being done to make 
this vision a reality across the national security enterprise? How can 
we work with you to help you achieve your vision? Also, given that this 
represents where the Air Force would like to be in 2035, do we really 
have to wait 20 years to see these concepts become a reality? What's 
stopping us from doing it faster?
    Mr. Cardillo. [The information referred to is classified and 
retained in the committee files.]
    Mr. Lamborn. Last Fall, the Air Force released its ``Future 
Operating Concept'', a strategic vision for where the Air Force wants 
to go in the next 20 years. It contains several thought-provoking 
vignettes. One vignette, titled ``Space Control Challenged'' envisions 
a Multi-Domain Operations Center which combines and integrates air, 
space, and cyberspace information and operations. At the MDOC, an Air 
Force Captain receives warning of an imminent ground-based laser attack 
on one of our commercial imagery satellites, and then uses big data 
fusion, analytics and simulation to select an offense cyber response. 
As the battle continues, he is able to have real-time situational 
awareness and command and control to fight the war in space. In another 
vignette, called ``Satellites On-Demand'', an F-35 pilot responds to an 
adversary's offensive degradation of U.S. space capabilities by 
launching an on-demand rapid reconstitution satellite cluster. Once the 
F-35 releases the satellite cluster at high altitude, a modular 
satellite booster propels the cluster into orbit, where it deploys into 
a dispersed network formation of micro-sat's complete with 
electromagnetic-spectrum measures, which complicates adversary space-
control actions. The cluster is thus able to focus its sensors on an 
area of interest and supports a strike package inbound to attack 
targets in enemy territory. My question is, what's being done to make 
this vision a reality across the national security enterprise? How can 
we work with you to help you achieve your vision? Also, given that this 
represents where the Air Force would like to be in 2035, do we really 
have to wait 20 years to see these concepts become a reality? What's 
stopping us from doing it faster?
    Mr. Calvelli. The NRO's Advanced Systems & Technology (AS&T) 
Directorate's research and development in the area of time-dominant 
intelligence collection using the SENTIENT automated mission management 
schema has promoted new opportunities for future ground architectures. 
SENTIENT modernizes intelligence collection by introducing modular big-
data analytic services in a highly automated, multi-INT system, 
employing a ground architecture controlling various sensors (strategic, 
tactical, commercial and specialized systems). In addition to 
transitioning SENTIENT capabilities into ground architectures, the NRO 
maintains a SENTIENT research infrastructure and research methodology 
enabling proof-of-concept demonstrations for prototype capabilities and 
works closely with the joint community to transition additional 
capabilities into operational baselines. The Congress, and this 
committee specifically, have repeatedly provided the NRO the 
authorization, encouragement, and resources it needs to meet the 
demands of a contested space environment. Your continued support of 
this efforts and your partnership in the future is appreciated. The NRO 
researches and develops new technologies and capabilities to 
operationalize on a variety of timescales. The NRO is committed to 
inserting new capabilities and products into the joint architecture 
routinely in order to assist maturation towards the objective 2035 
architecture. Ultimately, the objective architecture may take 20 years 
before it is a reality, but piece-parts will be delivered along the way 
as technologies and systems mature. I'm not aware of any limitations at 
NRO that are inhibiting the Air Force's ``Future Operating Concept.'' 
The NRO, working through the Department of Defense and the Intelligence 
Community, are committed to providing U.S. policymakers and warfighters 
the collection capabilities and tools necessary to meet national 
security demands today, tomorrow, and beyond.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. COFFMAN
    Mr. Coffman. Is there a synergy that could be had between NASA and 
the Air Force on the development of a new-technology upper stage engine 
at significantly lower life cycle cost? Could improvements to the upper 
stage engine support the goal of assured access to space? How does your 
4-step acquisition strategy include these opportunities that could 
benefit not only the AF and NASA, but also the American taxpayer?
    General Hyten. Yes, there is considerable potential synergy with 
NASA in the development of booster upper stage propulsion. NASA's Low 
Earth Orbit (LEO) missions, such as LEO science missions, International 
Space Station (ISS) resupply and commercial crew, fall within the Air 
Force's mission requirements. NASA's Commercial Crew organization has 
expressed some interest in how the Air Force executes mission 
assurance. Additionally, NASA's large Space Launch System (SLS) will 
utilize an upper stage based on the United Launch Alliance (ULA)'s RL10 
engine. The SLS configuration will use a two-engine RL10, while ULA is 
developing the SLS Exploration upper stage with up to four RL10s. The 
Air Force's deep experience with RL10 can potentially help NASA's SLS 
development. However, directing a specific engine is not compatible 
with the principle of full and open competition and is not part of the 
Air Force's strategy. If authorized in FY17, the Air Force plans to 
transition away from using the RD-180 engine by competitively awarding 
Launch Service Investment (LSI) Other Transaction Agreements (OTAs) to 
partner with industry on their commercial launch system development 
efforts while ensuring that their launch systems also meet National 
Security System (NSS) requirements.
    Mr. Coffman. Is there a synergy that could be had between NASA and 
the Air Force on the development of a new-technology upper stage engine 
at significantly lower life cycle cost? Could improvements to the upper 
stage engine support the goal of assured access to space? How does your 
4-step acquisition strategy include these opportunities that could 
benefit not only the AF and NASA, but also the American taxpayer?
    Mr. Loverro. I believe that the Air Force is most suited to address 
this question for the record. I defer to the Air Force to provide 
additional information.
    Mr. Coffman. Once awarded, will the Department's propulsion system 
provider or providers be the only options for decades to come. How do 
you plan to continually asset and pursue new and innovative launch 
technologies?
    Mr. Loverro. I believe that the Air Force is most suited to address 
this question for the record. I defer to the Air Force to provide 
additional information.
    Mr. Coffman. How would you adjust your 4-step approach to permit 
the full benefit of competition for the entire rocket stack? Can you 
ensure that truly new and innovative propulsion providers--some with 
dramatically new technologies--are made part of your acquisition 
approach for launch services? What are the on-ramps that you will make 
available?
    Mr. Loverro. I believe that the Air Force is most suited to address 
this question for the record. I defer to the Air Force to provide 
additional information.
    Mr. Coffman. How is the Department going to ensure, in its desire 
to procure a launch service, that the taxpayer receives the full 
benefit of open competition across the rocket stack, to include the 
upper stage?
    Mr. Loverro. I believe that the Air Force is most suited to address 
this question for the record. I defer to the Air Force to provide 
additional information.
    Mr. Coffman. How does the Department's 4-step approach address 
finding and promoting innovative rocket engine providers, some of whom 
the government has already invested in via the SBIR program?
    Mr. Weatherington. The first step in the Department's multi-step 
process to field new and improved launch service capabilities was to 
issue a Broad Area Announcement (BAA). The BAAs solicited ideas and 
project proposals that would provide risk reduction and technical 
maturation in support of future domestic liquid rocket engine and solid 
rocket motor development activities. The Air Force issued a total of 10 
BAA awards to a combination of academic institutions, small and large 
businesses. The projects include a number of innovated additive 
manufacturing process development activities for individual rocket 
engine components, as well as developing test and qualification 
standards for those new processes. Opportunities for innovation 
continue with step 2 investments at Orbital ATK, SpaceX, United Launch 
Alliance, and Aerojet Rocketdyne through the use of Other Transaction 
Authority agreements. All these projects will support the broader 
industry propulsion system development efforts. The final 2 steps of 
the approach will culminate in the development of new and improved 
launch service capabilities that will be available to the Department in 
FY 22.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. TURNER
    Mr. Turner. During the hearing it was stated that the Department of 
Defense is not pursuing launch systems, but instead pursuing launch 
services that consist of an integrated solution that addresses the 
components of main and upper stage engines. How does this approach 
ensure that new entrants are not shut out because the launch service 
provider has chosen their own solution?
    Mr. Weatherington. The Department's Evolved Expendable Launch 
Vehicle (EELV) New Entrant process is designed to ensure every company 
that wishes to become a certified EELV launch service provider (LSP), 
has an opportunity to do so. The New Entrant Certification Guide 
(NECG), issued by the Air Force in October 2011, delineates the top 
level requirements all prospective New Entrants must meet. The NECG is 
focused on the LSP requirements and not at the component provider 
level. The Department's expectation is the LSP will offer an 
integration solution for the government to evaluate to include 
incorporating innovative solutions from the 2nd/3rd tier technology 
base. In addition, the Department presumes the LSP will work with its 
vendor base to incorporate any and all new and innovative components 
into their final vehicle design. The Department is already funding some 
of these technology improvements as part of our Rocket Propulsion 
System (RPS) program. For example the funded RPS development activities 
include; the Aerojet AR-1 and Blue Origin BE-4 engines, improved solid 
rocket motors and launch vehicle upper stage design.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. PETERS
    Mr. Peters. Last year's NDAA had a provision that requires DOD to 
undertake a Satellite Communications (SATCOM) Pilot program to test out 
the best commercial SATCOM services. Section 1612, requires that these 
Pilots are supposed to be separate and different from the Pathfinder 
program. They were supposed to be ``orders of magnitude'' better that 
tested new technology, like high capacity satellites. The Air Force's 
plan in the FY 17 Budget seems to ignore this Pilot program and it 
appears there is no plan for testing high capacity SATCOM technology 
this year, or next year. Does the Air Force have a plan to implement 
the ComSat ``Pilot program'' and test this new high capacity 
technology? And in order to get this new technology to the warfighter, 
will you expedite the testing of high throughput/high capacity 
technology?
    General Hyten. The Air Force plans to implement five pathfinders as 
part of its pilot program. Currently, we are studying life cycle cost 
affordability implications and potential impacts to Joint Service 
terminals. Pathfinder #3, which is planned for FY17, will reduce risk 
by investigating interoperability issues between DOD infrastructure and 
High-Capacity Satellite ground stations. Pathfinder #5 will incorporate 
results from the Pathfinder #3 and #4 efforts to further demonstrate 
interoperability with High Capacity Satellites.
    Mr. Peters. We understand the Department's Purpose-Built and leased 
Satellite solutions don't take advantage of newer, less expensive 
technology, like high capacity Satellites: this new technology could 
enable capabilities, like in-flight tele-medicine for aeromedical 
evacuation, and ultra-high definition sensors for tactical ISR 
aircraft. Is there a way to accelerate the Commercial Satellite Pilot 
program efforts so that these demos or tests of high capacity ComSats, 
can contribute to the upcoming AOA? If so, will they address 
countermeasures to jamming and cyber threats?
    General Hyten. As discussed in the answer to the previous question 
(#65), the Air Force's Pathfinder program is investigating the use of 
COMSATCOM outside traditional leasing methods, including Pathfinder #5 
with high capacity satellites. As we work through these non-traditional 
acquisitions, we are investigating policy, regulatory, and life-cycle 
cost implications. The Air Force and the Department expect to 
incorporate lessons learned from the completed and ongoing Pathfinder 
efforts in the upcoming Wideband SATCOM AOA. Additionally, the Air 
Force is addressing jamming threats through other demonstrations like 
the protected tactical waveform that can be used over COMSATCOM.
    Mr. Peters. We understand the Department's Purpose-Built and leased 
Satellite solutions don't take advantage of newer, less expensive 
technology, like high capacity Satellites: this new technology could 
enable capabilities, like in-flight tele-medicine for aeromedical 
evacuation, and ultra-high definition sensors for tactical ISR 
aircraft. Is there a way to accelerate the Commercial Satellite Pilot 
program efforts so that these demos or tests of high capacity ComSats, 
can contribute to the upcoming AOA? If so, will they address 
countermeasures to jamming and cyber threats?
    Mr. Weatherington. The Department's commercial satellite 
communication (SATCOM) pilot program includes five Defense Information 
Systems Agency (DISA) and five Air Force pathfinder activities. The Air 
Force pathfinder program is investigating the use of commercial SATCOM 
outside of traditional leasing methods, including pathfinder #5 with 
high capacity satellites. The Department expects to incorporate lessons 
learned from the completed and ongoing pathfinder efforts in the 
upcoming wideband SATCOM Analysis of Alternatives. Additionally, the 
Air Force is addressing jamming threats through other demonstrations 
like the protected tactical waveform that can be incorporated into 
commercial SATCOM architectures.

                                  [all]
</pre></body></html>
